Case: 20-30501

Document: 00515805021

Page: 1

Date Filed: 04/01/2021

fHmteb States! Court of appeals
for tf)t Jf tftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 1,2021

No. 20-30501

Lyle W. Cayce
Clerk

Gary L. Workman
Petitioner—Appellant,
versus
Jason Kent, Warden, Dixon Correctional Institute,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-13175

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
Gary L. Workman, Louisiana prisoner # 622062, was convicted by a
jury of attempted aggravated rape, distribution of child pornography, and
possession of child pornography, and he received an aggregate sentence of 45
years in prison. He now seeks a certificate of appealability (COA) to challenge
the district court’s denial of his 28 U.S.C. § 2254 petition challenging these
convictions. Workman maintains that his trial counsel rendered ineffective
assistance by failing to call a retained expert to testify at his trial or by failing
to obtain another expert who would have conducted a more detailed analysis
of the evidence. In addition, he contends that his trial counsel rendered

Case: 20-30501

Document: 00515805021

Page: 2

Date Filed: 04/01/2021

No. 20-30501

ineffective assistance by failing to hire an investigator and that the evidence
shows he was entrapped into committing the charged offenses. Although
Workman raised other constitutional claims in the district court, he does not
repeat them here, and they are deemed abandoned. See Hughes v. Johnson,
191 F.3d 607, 613 (5th Cir. 1999).
To obtain a COA, Workman must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483 (2000). He will satisfy this standard “by demonstrating
that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). Because the district court rejected the
claims presented by Workman on their merits, he “must demonstrate that
reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack, 529 U.S. at 484; see also
Miller-El, 537 U.S. at 338.
Workman has not made the necessary showing. Accordingly, his
motion for a COA is DENIED. As Workman fails to make the required
showing for a COA on his constitutional claims, we do not reach whether the
district court erred by denying an evidentiary hearing. See United States v.
Davis, 971 F.3d 524, 534-35 (5th Cir. 2020), petition for cert, filed
(U.S. Mar. 18, 2021) (No. 20-7553).

2

Case 2:18-cv-13175-JTM Document 22 Filed 07/23/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
GARY L. WORKMAN

CIVIL ACTION

VERSUS

NO. 18-13175

JASON KENT, WARDEN

SECTION “H”(2)
ORDER

The court, having considered the complaint, the record, the applicable law, the
Report and Recommendation of the United States Magistrate Judge, and the Petitioner’s
objection to the Magistrate Judge’s Report and Recommendation, hereby approves the
Report and Recommendation of the United States Magistrate Judge and adopts it as its
opinion in this matter. In so doing, the Court specifically addresses Petitioner’s objection
regarding his counsel’s failure to subpoena an available expert witness at his trial. The
Court notes that the expert report at issue agreed that the prosecution’s report was “very
accurate.”
Therefore,
IT IS ORDERED that the petition of Gary L. Workman for issuance of a writ of
habeas corpus under 28 U.S.C. § 2254 be DENIED and DISMISSED WITH
PREJUDICE.
New Oj^aJls,

ian*, lh^find day of July, 2020.

UNITED STATES DISTRICT JUDGE

Case,2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 1 of 83

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

GARY L. WORKMAN

CIVIL ACTION

VERSUS

NO. 18-13175

JASON KENT, WARDEN

SECTION “H”(2)

REPORT AND RECOMMENDATION
This matter was referred to a United States Magistrate Judge to conduct hearings,
including an evidentiary hearing, if necessary, and to submit proposed findings and
recommendations for disposition pursuant to 28 U.S.C. §§ 636(b)(1)(B) and (C) and, as
applicable, Rule 8(b) of the Rules Governing Section 2254 Cases. Upon review of the
entire record, I have determined that a federal evidentiary hearing is unnecessary. See
28 U.S.C. § 2254(e)(2).1 For the following reasons, I recommend that the instant petition
for habeas corpus relief be DENIED and DISMISSED WITH PREJUDICE.

'Under 28 U.S.C. § 2254(e)(2), whether to hold an evidentiary hearing is a statutorily mandated
determination. Section 2254(e)(2) authorizes the district court to hold an evidentiary hearing only when
the petitioner has shown either that the claim relies on a new, retroactive rule of constitutional law that
was previously unavailable, 28 U.S.C. § 2254(e)(2)(A)(i), or the claim relies on a factual basis that could
not have been previously discovered by exercise of due diligence, 28 U.S.C. § 2254(e)(2)(A)(ii); and the
facts underlying the claim show by clear and convincing evidence that, but for the constitutional error,
no reasonable jury would have convicted the petitioner. 28 U.S.C. § 2254(e)(2)(B).

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 2 of 83

I.

STATE COURT PROCEDURAL BACKGROUND
The petitioner, Gary L. Workman, is incarcerated in the Dixon Correctional

Institute in Jackson, Louisiana.2 On June 5, 2012, Workman was charged by bill of
information in Jefferson Parish with one count of attempted aggravated rape of a twelve
year old juvenile in violation of La. Rev. Stat. § 14:27 and § 14:42.3 On July 19,2012,
the State filed an amended bill of information adding three counts of distribution and one
count of possession of pornography involving juveniles under the age of thirteen in
violation of La. Rev. Stat. § 14:81.1.4 On January 25, 2014, the bill was amended to
correct the dates related to the child pornography counts.5 The Louisiana Fifth Circuit
Court of Appeal summarized the facts determined at trial as follows in relevant part:
Detective Jessica Cantrell Zuppardo of the Kenner Police Department
testified that an anonymous tip was reported to her office concerning an
advertisement published on the online website “Craig’s List.” Detective Zuppardo
testified that the advertisement was found in the personal section, under “Casual
Encounters,” and was titled “Somebody’s Daughter.” After clicking on the title, the
content ofthe advertisement read: “[e]very woman is somebody’s daughter. Do you
have a daughter you could bring to me? I’d love to do somebody’s daughter.” Based
on the language used in the advertisement, Detective Zuppardo contacted Special
Agent Jamie Hall of the Federal Bureau of Investigations (FBI), who took over the
investigation. Detective Zuppardo testified that she again became involved in the
investigation when Agent Hall set up “a meet” with defendant in April of 2012.
Detective Zuppardo explained that Agent Hall had arranged for defendant to meet,
what defendant believed to be, a twelve-year-old girl to have sex with at a specified

2Record Doc. No. 3.
3State Record Vol. 1 of 12, Bill of Information, 6/5/12.
4State Record Vol. 1 of 12, Amended Bill of Information, 7/19/12.
5State Record Vol. 1 of!2, Second Amended Bill of Information, 2/25/14.
2

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 3 of 83

location in Kenner. Detective Zuppardo and Agent Hall set up surveillance near
2850 Idaho Avenue—the apartment complex address defendant was provided, and
waited for defendant to arrive. Detective Zuppardo testified that Special Agent Tim
Lucas followed defendant when defendant left his residence. Defendant’s vehicle
proceeded down Idaho Avenue at which time a traffic stop was effectuated in front
of the apartment complex by Kenner Police Officer Ethan Hales. Defendant was
placed in custody and an inventory search of his vehicle was performed. Inside his
vehicle a post-it note, which had the address of the apartment complex on Idaho
Avenue written on it, was tom in half and recovered from the passenger side
floorboard.
Defendant was transported to the Kenner Police Department where he was
interviewed by Detective Zuppardo and Agent Hall. Prior to interviewing defendant,
Detective Zuppardo testified that defendant was read his Miranda1 rights from an
Advice of Rights Form, which defendant signed, waiving his rights. Detective
Zuppardo stated that she did not force, coerce or promise anything to defendant in
exchange for his statement. She further stated that Agent Hall also provided
defendant with an FBI Advice of Rights Form. Detective Zuppardo explained that
Agent Hall, as the primary interviewer, asked the questions during the interview
while she took notes. She testified that during the interview defendant admitted to
posting the reported advertisement on Craig’s List and further admitted to having
contact with a man by the name of “Savage” who was actually undercover Special
Agent Hall. Defendant also admitted to sending a picture of his niece getting out of
the shower and other child pornography via email to Agent Hall. Defendant stated
that he used the directions provided by Agent Hall to drive to the apartment complex
on Idaho Avenue with the intent of trying to have sex with a twelve-year-old girl.
Specifically, defendant stated “[i]f I couldn’t have sexual intercourse, then I
wouldn’t want to do anything else with the girl.” Defendant admitted to owning a
personal computer and admitted to having sent child pornography through several
different sources in the past. He further stated that at one time, he attempted to make
contact with an eleven-year-old girl through a man named “Ron Anderson,” who had
previously sent defendant child pornography.
-Miranda v. Arizona. 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
Special Agent Jamie Hall of the FBI testified that he was contacted by
Detective Zuppardo concerning an anonymous tip reported to the Kenner Police
Department regarding a posting on Craig’s List. Agent Hall testified that he
investigated the posting further because he believed that the person who posted the
advertisement was looking for someone under the age of sixteen based on the phrase
“a daughter you could bring to me,” implying the daughter would not be of driving
age. Through the link provided in the advertisement, Agent Hall replied to the post
using the moniker “Savage.” The person replied back to Agent Hall using the
moniker “Kyabeah.” Agent Hall testified that the email communications between
the two of them lasted approximately one month, and included the transmittal of
several images he deemed to be child pornography.
3

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 4 of 83

Agent Hall explained in detail his email conversations with defendant. He
testified that he initiated contact with defendant by responding to his post with the
following: “what are you looking for, in particular? 1 may have something.”
Eventually, over the course of several email correspondences, Agent Hall testified
that defendant confirmed his intent by stating, “[a] guy I met online was wanting me
to break in his I l-year old daughter. Something like that?”2 When asked what
happened with the eleven-year-old, defendant replied that he would have “gone
through with it,” but the person stopped communicating. Defendant then asked
Agent Hall, “[s]o you got someone we can ... you know?” Due to the sexual nature
of the previous email correspondences, Agent Hall explained that he believed
defendant was requesting that he provide him with a minor to have sex with. Thus,
Agent Hall responded that he “might have access to a 12-year-old girl,” and later
inquired as to what defendant would want to do to her. Defendant responded with
his intent to have oral and vaginal sex with the minor. Specifically, defendant stated
that he wanted to “lick her little c* *t then have her suck me, then cum inside her p*
* * y.” Agent Hall then asked defendant if he had any pictures or videos from other
similar “escapades” to which defendant replied, “[n]ot on my own. Some a guy sent
me.” Throughout their correspondence, Agent Hall testified that in total, defendant
sent him five emails containing various images: one depicting a clothed juvenile, one
depicting a naked juvenile from behind (sent twice), and three PDF images
containing two pictures each of child pornography. In later correspondence,
defendant emailed Agent Hall stating, “I think I remember you saying you may has
(sic) access to a 12-year old.”3 Facilitating defendant’s opportunity for him to act
on his intent, Agent Hall responded, “[ijndeed, I do have access to have a 12-year
old.” Defendant then replied, “[y]ou share?” to which Agent Hall posed the
question, “videos?” Defendant responded, “[w]ell that, too. I was talking about
sharing the 12-year-old” and “does she like you doing her, or is it something forced
on her?” Defendant later stated, “would you like to watch me f* * * her?” prompting
Agent Hall to respond, “[y]our call on that.” Defendant then questioned, “[wjould
she let me? When can we do it?” and provided his dates of availability.
2 At this point, an administrative subpoena was obtained to secure defendant’s IP
address so that his physical location could be identified. The administrative subpoena was
returned, identifying defendant and his location where FBI agents were sent to conduct
surveillance.
3A search warrant was prepared based on these images. Additionally, the image of
the nude female juvenile, facing away from the camera, and two of the three PDF images
were later recovered from defendant’s computer.
A time and date were arranged and defendant was provided the address to an
apartment complex located at 2850 Idaho Avenue, apartment 211. Defendant was
apprehended in front of the designated meeting location and transported to the
Kenner Police Department where he provided a statement. Agent Hall confirmed
that defendant was read his Miranda rights twice, both by Detective Zuppardo and
himself, and that defendant waived them prior to giving his statement. Agent Hall
testified that prior to the interview he informed defendant that federal law prohibits

4

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 5 of 83

lying to a federal agent during a federal investigation. Defendant then proceeded to
tell Agent Hall that he went to the address on Idaho Avenue to meet someone by the
name of “Savage,” whom he believed was offering him a twelve-year-old girl to have
sex with; however, he further stated that he intended on calling the police when he
arrived if the invitation turned out to be true. Once confronted with portions of the
email correspondences between himself and “Savage,” defendant admitted to posting
the Craig’s List advertisement and communicating with a man named “Savage”
whom he believed lived in the apartments on Idaho Avenue and to whom he sent six
child pornographic images to. He admitted that one of the photographs was of his
niece getting out of the shower, and one of the images was of a young girl lying on
her back with an adult male ejaculating on her.
Defendant further confessed that he went to the apartment complex on Idaho
Avenue to have sex with a twelve-year-old female and that he was planning on going
through with it but that if he could not “get it up he would have left and done nothing
else.” He explained that he wrote down the Idaho Avenue address on a post-it note
which was on the floorboard of his truck. He also stated that he had sent child
pornography to more than one person on previous occasions. Defendant further
indicated that he had been in contact with a person named Ron Anderson who had
an eleven-year-old girl that he was trying to get defendant in touch with for the
purpose of having sexual intercourse. At the end of the interview, defendant stated
that he wanted to “veer away from becoming a pedophile” and begged Agent Hall
and Detective Zuppardo to let him go, promising that he would never do it again.
Agent Hall testified that a federal search warrant was issued for defendant’s
residence and upon execution of the warrant, defendant’s computer was seized. The
images found on defendant’s computer were forwarded to the National Center for
Missing and Exploited Children who identified at least three of the minor victims in
the images.
Special Agent Timothy Lucas of the FBI testified that he conducted
surveillance on defendant and reported to Agent Hall when defendant was en route
to the designated meeting place. Agent Lucas testified that defendant left his
residence approximately five minutes after the meeting location was provided to him.
He further testified regarding the route used by defendant to get to the specified
location, which was approximately five miles from defendant’s residence. After
defendant was stopped in front of the meeting location, Agent Lucas, pursuant to a
search warrant, performed a search of defendant’s residence from which a computer
and scanner were seized.
Computer forensic examiner expert Special Agent Lawrence Robinson ofthe
FBI testified regarding the evidence he obtained from a “USB thumb drive” and a
hard drive from the “Compaq computer” seized from defendant’s residence. He
testified that he processed the content of the seized evidence into a “user-friendly
format” so Agent Hall could review the material and “bookmark” the information
pertinent to the investigation. Agent Robinson then drafted a report with the
bookmarked information found to be relevant by Agent Hall. The pertinent images
5

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 6 of 83

found on defendant’s hard drive were described and shown to the jury. Agent
Robinson further testified that the computer user name used to view and/or generate
the images was “Kyabeah.” Agent Robinson confirmed that several of the images
at issue were scanned onto defendant’s computer in March of 2012.
Defendant testified that in 2012, he was conducting research on human
behavior. While researching, he responded to a “chat” from someone using the
moniker “Koala 211” or “215” from New Zealand. He testified that the man sent
him icons, which he saved to his computer, not knowing their content. Once he
opened the images and discovered they contained child pornography, he stated that
he deleted them. Sometime later, while conducting maintenance on his computer,
he learned that the images still existed. He testified that he attempted to permanently
delete the photographs but that they reappeared. At some point, he downloaded the
photographs, printed them, and re-submitted them under a new file named “Koala
New.” He testified that he was told that if a file is renamed, it can then be
permanently deleted. He believed the images were finally deleted when he received
a message that stated, “file no longer exists.” Defendant denied that he was into
child pornography and stated that he has never purchased child pornography
magazines or videos.
Defendant testified that he posted an advertisement on Craig’s List as part of
his behavioral research. He explained that the posting was intended to attract adults
and that he never intended to attract a child. He stated that he received a few
responses to the posting, including one from “Ron Anderson” and another male,
“Endavin,”4 who told defendant that he had been molested by his brother. Defendant
met Endavin in person who relayed his history of sexual abuse to defendant. Three
weeks later, he stated that he learned from Endavin that there were children being
abused in “New Denham Springs,” Louisiana. He testified that he also received
another response to his posting by someone named “Savage,” who at the time he
believed was connected to “Endavin” and might have been the same person he had
had previous contact with (who’s moniker was “Seattle 038 a/k/a Hot Tot Boy”), and
who defendant knew to be into child pornography.
“Endavin responded to a different posting by defendant under the title “[something
taboo.”

Defendant testified that his intent in responding to Savage was to find out if
“Savage” was the same person as “Seattle 038.” In order to gain the confidence of
“Savage,” defendant explained that he sent a photograph of a girl in clothing. He
testified that he could not explain how the photographs he received from “Koala”
containing the child pornographic images were sent to “Savage” because he did not
remember sending them, and thought that they could not be sent because they had
been deleted. Defendant admitted to sending photographs of adult women to
“Savage.” He further denied having the intent to have sex with a twelve-year-old
girl when he went to the address on Idaho Avenue. He stated that his intent was to
see if the address was real and did not plan to stop or go inside. He testified that he

6

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 7 of 83

was afraid that “Savage” was molesting children and did not want to “falsely accuse
anyone” so he wanted to verify the address before reporting “Savage” to the police.
Defendant testified that he attempted to explain the situation to Agent Hall
but was told, on two occasions, that it is a federal crime to lie to a federal agent. He
denied admitting that he intended on going to the address to have sex with a
twelve-year-old. He also denied intentionally intending to distribute child
pornography.
State v. Workman. 170 So.3d 279, 283-87 (La. App. 5th Cir. 2015); State Record
Volume 6 of 12, Louisiana Fifth Circuit Court of Appeal Opinion, 14-KA-559 at pp.
4-12, April 15,2015.
Defense counsel filed a motion to suppress petitioner’s statement on June 12,
2012.6 Workman filed a similar pro se motion to suppress his statement on March 26,
2013.7 A hearing was held on February 25,2014, after which the trial court denied both
motions to suppress. 8
Workman was tried before a jury on February 26 through 27,2014 and was found
guilty of all five counts.9 On March 6,2014, petitioner filed a motion for new trial.10 On

6State Record Vol. 1 of 12, Omnibus Motions and Order for Pre-Trial Motions, 6/12/12.
7State Record Vol. 1 of 12, Pro Se Omnibus Motions and Order for Pre-trial Motions, 3/26/13.
'State Record Vol. 1 of 12, Trial Minutes, 2/25/14; State Record Vol. 5 of 12, Hearing Transcript,
2/25/14.
9State Record Vol. 1 of 12, Trial Minutes, 2/25/14; Trial Minutes, 2/26/14; Trial Minutes,
2/27/14; Verdict, 2/27/14; State Record Vol. 5 of 12, Trial Transcript, 2/26/14; State Record Vol. 6 of
12, Trial Transcript (con’t), 2/26/14; Trial Transcript, 2/27/14; State Record Vol. 3 of 12, Opening
Statements Transcript, 2/26/14.
10State Record Vol. 1 of 12, Motion for New Trial, 3/6/14.
7

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 8 of 83

March 10,2014, the state trial court denied the motion and sentenced Workman to fifteen
years in prison as to count one; ten years in prison as to counts two, three and four; and
five years in prison as to count five, with counts one through four to be served
consecutively and count five to be served concurrently, for a total of forty-five (45) years
at hard labor and without the benefit of parole, probation or suspension of sentence.11
On direct appeal to the Louisiana Fifth Circuit, Workman’s appointed counsel
asserted three errors: (1) The trial court erred in denying his motion to suppress his
statement. (2) The evidence was legally insufficient to convict him. (3) The trial court
imposed an excessive sentence.12 On February 17, 2015, Workman filed a pro se brief
again claiming that the trial court erred in failing to suppress his statement and asserting
three additional errors: (4) Prosecutorial misconduct should have resulted in a mistrial.
(5) The trial court should have found entrapment. (6) The trial court erred in instructing
the jury regarding attempt.13 Workman filed a second pro se brief on February 28,
2015.14 On April 15, 2015, the Louisiana Fifth Circuit affirmed the convictions and
sentences, finding the alleged prosecutorial misconduct waived and the remaining claims

"State Record Vol. 1 of 12, Sentencing Minutes, 3/10/14; Commitment Order, 3/10/14; State
Record Vol. 6 of 12, Sentencing Transcript, 3/10/14.
"State Record Vol. 6 of 12, Appellant Brief, 2014-KA-0559,10/27/14.
"State Record Vol. 6 of 12, Pro Se Appellant Brief, 2014-KA-0559, 2/23/15 (dated 2/17/15).
"State Record Vol. 6 of 12, Pro Se Supplemental Appellate Brief, 14-KA-559, 3/5/15 (dated
2/28/15).
8

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 9 of 83

without merit, but remanding the case for the Uniform Commitment Order to be
corrected to reflect the correct adjudication date and the dates of the offenses for counts
two, three and four.15 The trial court amended the Uniform Commitment Order as
directed on April 15,2015.16 The Louisiana Supreme Court denied Workman’s related
writ application without stated reasons on March 24, 2016.17
Workman’s conviction became final on June 22, 2016, ninety (90) days after the
Louisiana Supreme Court denied his first writ application, which is when the time
expired for Workman to file a petition for writ of certiorari with the United States
Supreme Court. Roberts v. Cockrell. 319 F.3d 690,694 (5th Cir. 2003) (citing 28 U.S.C.
§ 2244(d)(1)(A); Flanagan v. Johnson. 154 F.3d 196, 200-01 (5th Cir. 1998)); Ott v.
Johnson, 192 F.3d 510,513 (5th Cir. 1999) (citing 28 U.S.C. § 2244(d)(1)(A)); U.S. Sup.
Ct. R. 13(1).
On November 15, 2016, Workman filed an application for post-conviction relief
with counsel, in which he asserted the following claims: (1) ineffective assistance of
counsel for failing to investigate, present a defense, adequately prepare for trial and
provide copies of essential reports to Workman prior to trial; and (2) ineffective
15State v. Workman. 170 So. 3d 279 (La. App. 5th Cir. 2015); State Record Vol. 6 of 12,5th Cir.
Opinion, 14-KA-559, 4/15/15.
16State Record Vol. 1 of 12, Minutes, 4/15/15; Amended Uniform Commitment Order, 4/15/15.
17State v. Workman. 190 So. 3d 1189 (La. 2016); State Record Vol. 12 of 12, La. S. Ct. Order,
2015-KO-0909, 3/24/16; Supplement, 15 KO 909, 5/26/15 (dated 5/15/15).
9

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 10 of 83

assistance of appellate counsel for failing to assign as error admission of inadmissible
evidence at trial.18 The state trial court dismissed the application without prejudice for
failure to use the mandatory uniform application.19 Workman, through counsel, refiled
his application on December 15,2016.20 The state trial court denied relief on February
1, 2017, finding no merit to his ineffective assistance of counsel claims.21
On July 14,2016, the Louisiana Fifth Circuit denied Workman’s writ application
filed with counsel, finding no merit to his ineffective assistance of counsel claims.22 On
October 29, 2018, the Louisiana Supreme Court denied Workman’s writ application,
finding that he had failed to show ineffective assistance of trial and appellate counsel
under Strickland v. Washington. 466 U.S. 668 (1984).23 On October 29, 2018, the

,8State Record Vol. 1 of 12, Application for Post Conviction Relief, 11/15/16; St. Rec. Vol. 2 of
3, Application for Post Conviction Relief (con’t), 11/15/16; St. Rec. Vol. 3 of 12, Application for Post
Conviction Relief (con’t), 11/15/16.
i9State Record Vol. 3 of 12, Trial Court Order, 11/29/16.
20State Record Vol. 3 of 12, Application for Post Conviction Relief, 12/15/16.
2‘State Record Vol. 3 of 12, Trial Court Order, 2/1/17.
22State Record Vol. 8 of 12, Fifth Circuit Order, 17-KH-134, 4/4/17; 5th Cir. Writ Application,
17-KH-134, 3/3/17.
23State v. Workman. 255 So.3d 579 (La. 2018) (per curiam); State Record Vol. 10 of 12, La. S.
Ct. Order, 2017-KP-0716, 10/29/18; La. S. Ct. Writ Application, 5/2/17.
10

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 11 of 83

Louisiana Supreme Court declined to consider Workman’s pro se writ application,
finding it not timely filed pursuant to La. S.Ct. R. X § 5.24
In the interim, Workman filed a motion for concurrent and coterminous judgments,
which was denied on June 12,2017.25 He also filed amotion to correct an indeterminate
sentence, but the record does not include the disposition of that motion26
II.

FEDERAL HABEAS PETITION

(A)

Background
On December 13,2018, the clerk ofthis court filed Workman’s petition for federal

habeas corpus relief in which he asserts the following grounds for relief: (1) The trial
court erred in denying his motion to suppress his statement. (2) Insufficient evidence
supports his convictions. (3) The State committed prosecutorial misconduct. (4) He
received ineffective assistance of trial counsel for failing to (a) investigate the case; (b)
subpoena an expert in computer forensics and Workman’s siblings; (c) provide Workman
with vital documents during and prior to trial; (d) file pretrial motions to quash, to
suppress the evidence and to compel the State to produce proof of the complaint or tip

24State ex rel. Workman v. State 254 So.3d 697 (La. 2018); State Record Vol. 10 of 12, La. S.
Ct. Order, 2017-KH-0985,10/29/2018.La. S.Ct. Writ Application, 17 KH 985,6/12/17 (dated 5/16/17).
25State Record Vol. 3 of 12, Motion for Concurrent and Coterminous Judgments, 6/1/17 (dated
5/26/17); Trial Court Order, 6/12/17.
26State Record Vol. 1 of 12, Motion to Correct an Indeterminate Sentence Pursuant to La.C.Cr.P.
art. 879, 12/10/18.
11

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 12 of 83

and the e-mail about the eleven-year-old in Mississippi; (e) request Bradv evidence; (f)
object to illegally obtained inadmissible evidence; and (g) challenge the “fake” file sent
by Agent Hall to Workman. (5) He received ineffective assistance of appellate counsel
for failing to assign as error the introduction of evidence relating to erotic images. (6)
The trial court erred in holding as a matter of law that there was no entrapment.27
The State filed an answer in response to Workman’s petition in which it concedes
that the federal petition is timely and that Workman exhausted all of his claims.28 The
State argues that Workman’s third claim is procedurally barred and the remaining issues
are without merit.
(B)

Petitioner’s Preliminary Motions
Workman filed several motions seeking discovery and a more definite statement.29

On May 14, 2019, I denied his request for a more definite statement and dismissed
without prejudice as premature petitioner’s requests for discovery and production of
exhibits.30 Having fully reviewed the record, I find that discovery and further production
of the state court record is not warranted for the following reasons.

27Record Doc. No. 3.
28Record Doc. No. 12.
29Record Doc. Nos. 9, 14,15 and 16.
30Record Doc. No. 17.
12

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 13 of 83

As an initial matter, Workman seeks discovery of stored electronic
communications related to this case.31 Workman claims there are missing e-mails and
evidence, particularly e-mails relating to an eleven-year-old girl in Mississippi who was
allegedly being sexually abused. He also seeks a copy ofthe affidavit and order allowing
electronic surveillance under La. Rev. Stat. § 15:1310.

In addition, he seeks

documentation supporting law enforcement personnel’s claim that they received an
anonymous tip about an advertisement on Craig’s List which led them to discover
Workman’s advertisement.
Workman’s filings show that he made multiple requests for documents pursuant
to the Freedom of Information Act.32 Petitioner admits that, in response to his requests,
the Federal Bureau of Investigation provided him with one hundred and twenty (120)
pages of its one hundred and sixty-nine (169) page file, apparently withholding forty-nine
(49) pages under 5 U.S.C. §§ 552(a) and (b).33 Workman further concedes that his
representative was able to review and retrieve copies of documents from the Jefferson
Parish District Attorney’s Office file and that he received e-mail evidence, although the
evidence did not include an e-mail about the eleven-year-old girl.34 In a written response

3,Record Doc. Nos. 9 and 14.
32Record Doc. No. 9-1 at pp. 2-8,10-35.
33Id. at p. 8.
34Id. at pp. 18,20.
13

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 14 of 83

to one of his records requests, the Louisiana Department of Justice stated that, “[a]fter
a diligent search, our office has been unable to locate any records pertaining to your
inquiry’’for “a copy ofthe affidavit and application for the order authorizing or approving
the interception of any wire, electronic, or oral communication and the district attorney ’ s
report to the attorney general and the attorney general’s report to the judicial
administrator” of the [Louisiana] [SJupreme [C]ourt for “electronic surveillance. ”35
La. Rev. Stat. § 15:1310, Louisiana’s Electronic Surveillance Act (“the Act”),
which sets out the procedures law enforcement must follow to judicial authorization of
electronic surveillance, also known as a wiretap, has no application to this case because
there was no interception of electronic or wire communications. Agent Hall, working in
an undercover capacity, and Workman communicated via e-mail. Therefore, judicial
authorization under the Act was not required and, as Workman has already been advised,
neither an affidavit seeking authorization nor an order granting authorization to conduct
electronic surveillance exists. After Workman was arrested, a search warrant was
obtained to search Workman’s residence, and his computer was seized. The warrant and
the supporting affidavit are part of the state court record and copies were attached as an
exhibit to Workman’s state application for post-conviction relief.36

35Id. atp. 34.
36State Record Vol. 1 of 12, State Record Vol. 1 of 12, Application for Post Conviction Relief,
Exhibit 6, 11/15/16.
14

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 15 of 83

While Workman seeks documentary evidence demonstrating that law enforcement
received a call about his Craig’s List advertisement, nothing in the record supports a
finding that such evidence exists. What does not exist cannot be produced. Detective
Zuppardo37 testified that Kenner Police Department Headquarters received an anonymous
tip from a concerned citizen concerning a Craig’s List advertisement that the person felt
should be investigated.38 Zuppardo did not personally receive the call, but she was
informed of it, and, since the caller wished to remain anonymous and did not want to
make a report, she did not know the name of the caller.39 Agent Hall testified that
Detective Zuppardo told him she received a complaint about a Craig’s List advertisement
and that “someone called in and wanted law enforcement to look into the matter. ?>40
There is no evidence that the anonymous tip was actually documented in a report or that
any such report was withheld from pretrial discovery.

37 The opinion of the Louisiana Fifth Circuit Court of Appeal, cited above, refers to Detective
Jessica Cantrell Zuppardo as Detective Zuppardo. The state trial court transcript consistently makes
reference to Detective Cantrell. Detective Zuppardo and Detective Cantrell are the same person. For
purposes ofthis opinion, Detective Jessica Cantrell Zuppardo will be referred to as Detective Zuppardo.
38State Record Vol. 5 of 12 at pp. 12-13, Trial Transcript, 2/26/14.
39Id. at p. 14.
40State Record Vol. 5 of 12, Preliminary Hearing Transcript at p. 5, 5/24/12; Trial Transcript at
p. 134, 2/24/14.
15

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 16 of 83

For the foregoing reasons, Workman’s motion for production of electronically
stored communications, Record Doc. No. 9, and motion for leave to request discovery,
Record Doc. No. 14, are DENIED.
Workman’s remaining motions seek the state court record filed by the State with
its response to his petition, together with any exhibits and an index.41 Workman claims
he cannot adequately prepare a traverse without these documents, including the complete
trial and related transcripts.
The State filed a twelve (12) volume state court record in response to my
December 14, 2018 order.42 The state court record is produced to the court separately
under separate cover and is not an attachment to the State’s answer. In its response, the
State did not cite any portions of the state court record, other than the opinions and orders
ofthe state trial court, the Louisiana Fifth Circuit and the Louisiana Supreme Court,43 all
of which Workman attached as exhibits to his habeas petition.44 The State’s response
included no exhibits45 Thus, Workman already has everything in the record relied upon
or cited by the State. He has not shown that he is entitled to a copy of the entire state

41RecordDoc. Nos. 15-16.
42Record Doc. No. 3.
43Record Doc. No. 12.
44Record Doc. Nos. 3-3 at pp. 41-60; 3-4 at pp. 8,39; 3-5at pp. 3-4,40-41, 71-72, 73-75.
45Record Doc. No. 12.
16

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 17 of 83

court record filed with the court, and his motions, Record Doc. Nos. 15 and 16, are
therefore DENIED.46
III.

GENERAL STANDARDS OF REVIEW
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L.

No. 104-132,110 Stat. 1214, comprehensively revised federal habeas corpus legislation,
including 28 U.S.C. §2254. The AEDPA went into effect on April 24,1996, and applies
to habeas petitions filed after that date.47 Flanagan v. Johnson. 154 F.3d 196, 198 (5th
Cir. 1998) ('citing Lindhv. Murphy. 521 U.S. 320 (1997)). The AEDPA therefore applies
to Workman’s petition, which, for reasons discussed below, is deemed filed in a federal

court on December 6, 2018. 48
46The state court record does not include an index and no index was required by the court. While
a copy of the trial court docket master is included, Workman previously paid for and received a copy of
it. State Record Vol. 1 of 12, Letter, 7/16/14 (dated 6/17/14); Response to Request for Information
and/or Documents, 7/17/14. The record demonstrates that Workman was permitted to review the entire
trial court record to search for errors before he filed his two pro se briefs on direct appeal. State Record
Vol. 6 of 12, 5th Cir. Protective Order, 14-KA-559, 12/18/144; 5th Cir. Order, 14-KA-559, 1/28/15.
Workman’s state court application for post-conviction relief, filed with the counsel’s assistance, included
76 pages of discovery, the trial transcripts and a transcript from a hearing held on May 23,2013. State
Record Vol. 1 of 12, Application for Post Conviction Relief, 11/15/16; State Record Vol. 2 of 3,
Application for Post Conviction Relief(con’t), 11/15/16; State Record Vol. 3 of 12, Application for Post
Conviction Relief (con’t), 11/15/16. Workman was represented by counsel at all times until the filing
of his federal habeas petition and it is clear that his counsel possessed copies of the state court record,
the District Attorney’s file, and the non-protected portions of the Federal Bureau of Investigation file.
47The AEDPA, which was signed into law on that date, does not specify an effective date for its
non-capital habeas corpus amendments. Absent legislative intent to the contrary, statutes become
effective at the moment they are signed into law. United States v. Sherrod. 964 F.2d 1501.1505 (5th Cir.
1992).
48

The Fifth Circuit has recognized that a “mailbox rule” applies to pleadings, including habeas
corpus petitions filed after the effective date of the AEDPA, submitted to federal courts by prisoners
acting pro se. Under this rule, the date when prison officials receive the pleading from the inmate for
17

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 18 of 83

The threshold questions in habeas review under the amended statute are whether
the petition is timely and whether petitioner’s claims were adjudicated on the merits in
state court; i.e.. the petitioner must have exhausted state court remedies and must not be
in “procedural default” on a claim. Nobles v. Johnson. 127 F.3d 409, 419-20 (5th Cir.
1997) (citing 28 U.S.C. § 2254(b), (c)). The State concedes and I find that Workman’s
petition was timely filed. The State has asserted the defense ofprocedural default based
on the presentation and disposition of his third claim in the state courts.
IV.

EXHAUSTION DOCTRINE AND PROCEDURAL DEFAULT
“A fundamental prerequisite to federal habeas reliefunder § 2254 is the exhaustion

of all claims in state court prior to requesting federal collateral relief.” Whitehead v.
Johnson. 157 F.3d384,387 (5th Cir. 1998) (citing Rose v. Lundv. 455 U.S. 509,519-20
(198211: accord Preiserv. Rodriguez. 411 U.S. 475.500 (19731: Nobles. 127F.3dat419.
“A federal habeas petition should be dismissed if state remedies have not been exhausted
as to all of the federal court claims.” Whitehead. 157 F.3d at 387 (citing 28 U.S.C.
§ 2254(b)(1)(A); Rose. 455 U.S. at 519-20) (emphasis added).

delivery to the court is considered the time of filing for limitations purposes. Coleman v. Johnson. 184
F.3d 398,401 (5th Cir. 19991. cert, denied. 529 U.S. 1057(20001: Spotville v. Cain. 149 F.3d374,378
(5th Cir. 1998); Cooper v. Brookshire. 70 F.3d 377, 379 (5th Cir. 1995). The clerk of court filed
Workman’s federal habeas petition when the filing fee was received on December 13,2018. Workman
certified under penalty of perjury that he placed his original pleadings into the prison mail system on
December 6,2018. The fact that he paid the filing fee on a later date does not alter the application of the
federal mailbox rule to his pro se petition. See Cousin v. Lensing. 310 F.3d 843, 847 (5th Cir. 2002)
(mailbox rule applies even if inmate has not paid the filing fee at the time of mailing) (citing Spotville.
149 F.3d at 378).
18

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 19 of 83

“The exhaustion requirement is satisfied when the substance ofthe federal habeas
claim has been fairly presented to the highest state court.” Id. (citing Picard v. Connor.
404 U.S. 270, 275-78 (1971)) (emphasis added). “State prisoners must give the state
courts one full opportunity to resolve any constitutional issues by invoking one complete
round ofthe State’s established appellate review process,” including discretionary review
when that review is part of the State’s ordinary appellate review procedures. O’Sullivan
v. Boerckel. 526 U.S. 838, 845 f1999k accord Duncan v. Walker. 533 U.S. 167,177-79
(2001).
“A federal court claim must be the4 substantial equivalent’ of one presented to the
state courts ifit is to satisfy the ‘fairly presented’ requirement.” Whitehead. 157F.3dat
387 (citing Picard. 404 U.S. at 275-78). “This requirement is not satisfied if the
petitioner presents new legal theories or new factual claims in his federal application.”
(emphasis added) Id (citing Nobles. 127 F.3d at 420). It is not enough for a petitioner
to raise the claims in the lower state courts, if they were not also specifically presented
to the Louisiana Supreme Court. See Baldwin v. Reese. 541 U.S. 27, 32 (2004) (a
prisoner does not fairly present a claim to a state court if that court must read beyond a
petition or brief, such as a lower court opinion, to find the claim).
A.

FAILURE TO EXHAUST

19

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 20 of 83

To exhaust review of his claims in the state courts, Workman must have fairly
presented the same claims and legal theories he urges in the instant petition to this federal
court to the state courts in a procedurally proper manner and have given all appropriate
state courts an opportunity to address each of his claims, either on direct appeal or in
post-conviction proceedings through the Louisiana Supreme Court. In this case, the State
concedes and I find that Workman has exhausted state court review of some of his
claims. However, for the reasons that follow, Workman has defaulted any review of five
portions ofhis ineffective assistance oftrial counsel claims and his claims are considered
technically exhausted.
Workman has asserted multiple grounds for relief related to his claim of
ineffective assistance of trial counsel.

The State claims that Workman properly

exhausted his claims of ineffective assistance of trial counsel. Having reviewed
Workman’s application for post-conviction relief and his writ applications filed in the
Louisiana Fifth Circuit Court of Appeal and the Louisiana Supreme Court, I find that
Workman failed to exhaust review in a procedurally proper manner of five portions of
his ineffective assistance of counsel claims concerning failure to present the testimony
of his siblings at trial, file pretrial motions, request Bradv evidence, object to illegally
obtained inadmissible evidence and challenge the “fake” file sent by Agent Hall to
Workman.

20

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 21 of 83

To the extent this differs from or exceeds the defense asserted by the State, I raise
the issue ofexhaustion in part sua sponte. Accordingly, petitioner is hereby specifically
instructed that this report and recommendation is notice to him that this court is
addressing the issue of failure to exhaust state court remedies and that petitioner
must submit anv evidence or argument concerning exhaustion as part of anv
objections he may file to this report. See Kurtzemann v. Ouarterman. 306 F. App’x
205,206 (5th Cir. 2009) (district court may sua sponte raise failure to exhaust, and notice
of and an opportunity to respond to the exhaustion issue must be given) (citing Dav v.
McDonough. 547 U.S. 198, 209-10 (2006) (addressing limitations) and Magouirk v.
Phillips. 144 F.3d 348, 358 (5th Cir. 1998) (addressing exhaustion)).
I find that Workman did not raise his claims of ineffective assistance of trial
counsel concerning failure to present the testimony of his siblings at trial, file pretrial
motions, request Bradv evidence, object to illegally obtained inadmissible evidence and
challenge the “fake” file sent by Agent Hall to Workman in any state court, and therefore
these claims were not exhausted in a procedurally proper manner. When ineffective
assistance of counsel is asserted, the claim is not exhausted if the petitioner did not raise
or mention the same basis or legal theory in the state court proceedings that is asserted
in a federal petition. See Ogan v. Cockrell. 297 F.3d 349,358 (5th Cir. 2002) (“Because
Ogan is now proceeding on a different theory than that advanced in the state habeas
court, we find this ineffectiveness of habeas counsel claim to be unexhausted.”); Bums
21

Case 2:18-cv-13175-JTM

Document 18 Filed 09/06/19 Page 22 of 83

v. Estelle. 695 F.2d 847, 849-50 (5th Cir. 1983) (factual bases for ineffective assistance
claim were not exhausted as “significantly different” from those raised in state court).
Thus, Workman failed to exhaust state court review of these portions of his ineffective
assistance of counsel claim.
B.

NO REMAINING OPPORTUNITY TO EXHAUST
For the foregoing reasons, Workman has not allowed the state courts one full

opportunity to review these claims through the Louisiana Supreme Court in a
procedurally proper manner. The burden is on petitioner to assert his federal claim in the
state courts at a time when state procedural law permits its consideration on the merits.
Bell v. Cone. 543 U.S. 447,451 n.3 (2005) (citing Baldwin. 541 U.S. at 30-32). When
a petitioner has failed to exhaust state court remedies and the state court to which the
petitioner would be required to present his claims would now find the claims
procedurally barred, the claims are procedurally defaulted for purposes of federal habeas
review and must be dismissed. Coleman v. Thompson. 501 U.S. 722, 735 n.l (1991).
The record in this case reflects that Workman is now unable to litigate his
unexhausted claims in the Louisiana courts. The Louisiana Supreme Court has already
advised Workman that he no longer has available post-conviction remedies:
Relator has now been fully litigated his application for post-conviction relief in state
court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a second or successive application only
under the narrow circumstances provided in La.C.Cr.P. art. 930.4 and within the
limitations period as set out in La.C.Cr.P. art 930.8. Notably, the legislature in 2013
22

Case 2:18-cv-13175-JTM

Document 18 Filed 09/06/19 Page 23 of 83

La. Acts 251 amended that article to make the procedural bars against successive
filings mandatory. Relator’s claims have now been fully litigated in accord with
La.C.Cr.P. art. 930.6, and this denial is final. Hereafter, unless he can show that one
of the narrow exceptions authorizing the filing of a successive application applies,
relator has exhausted his right to state collateral review. The district court is ordered
to record a minute entry consistent with this per curiam.
State v. Workman. 255 So.3d 579 (La. 2018) (per curiam) (La. 2018); State Record
Volume 10 of 12, Louisiana Supreme Court Order, 17-KP-0716, October 29, 2018.
Workman therefore no longer has the opportunity to present his unexhausted
claims in the state courts. A habeas petitioner who has defaulted his federal claims in
state court meets the technical requirements for exhaustion, because there are no longer
any state remedies “available” to him. Gray v. Netherlands 518 U.S. 152, 161-162
(1996); see 28 U.S.C. § 2254(b); Coleman. 501 U.S. at 732 (citing Engle v. Isaac. 456
U.S. 107,125-26, n.28 (1982)). The United States Supreme Court has determined that
the exhaustion requirement “‘refers only to remedies still available at the time of the
federal petition, ’ [and] it is satisfied ‘ if it is clear that [the habeas petitioner’s] claims are
now procedurally barred under [state] law.’” Gray. 518 U.S. at 161-62(quoting Engle.
456 U.S. at 125 n.28, and Castille v. Peoples. 489 U.S. 346,351 (1989))(emphasis added,
citations omitted).
I therefore find that state court review of Workman’s unexhausted claims is
technically exhausted, and the claims must be evaluated for procedural default. See
Gray. 518 U.S. at 162 (“... the procedural bar that gives rise to exhaustion provides an

23

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 24 of 83

independent and adequate state-law ground for the conviction and sentence, and thus
prevents federal habeas corpus review of the defaulted claim ...”); Coleman. 501 U.S. at
735 n.l (“[I]f the petitioner failed to exhaust state remedies and the court to which
petitioner would be required to present his claims in order to meet the exhaustion
requirement would now find the claims procedurally barred, ... [then] there is a
procedural default for purposes of federal habeas....”).
The procedural bar created by a petitioner’s technical exhaustion stands as an
adequate and independent state procedural ground and prevents federal habeas corpus
review of a defaulted claim. Gray. 518 U.S. at 162; see also. Coleman. 501 U.S. at 735
n.l; Beazlev v. Johnson. 242 F.3d 248, 264 (5th Cir. 2001). In the interest of judicial
economy, I will address the procedural bar to these and Workman’s other defaulted claim
in the following section of this report. To the extent the State’s exhaustion and
procedural default defenses differ from the foregoing analysis, petitioner is hereby
specifically instructed that this report and recommendation is notice to him that this
court is sua sponte raising the issue of procedural default and that petitioner must
submit anv evidence or argument concerning the default as part of anv objections
he mav file to this report. Magouirk. 144 F.3d at 348.
V.

PROCEDURAL DEFAULT

24

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 25 of 83

In addition to the unexhausted claims, the state courts imposed a procedural bar
to one of Workman’s other claims. Specifically, in his third federal habeas claim,
Workman asserts that the state trial judge erred when he denied a motion for mistrial
based on statements by the prosecutor that Workman had fabricated his defense, which
Workman claims constituted prosecutorial misconduct.
On cross-examination, the prosecutor and Workman had the following exchange:49
A:

Anything. I’m just trying to get a rise out of this guy, See what he’s
doing. See what he’s up to. I’m not-My intent, I know my intent.

Q.
A.

You keep saying “intent.” Why do you keep saying “intent”?

Q.

Because you’ve been sitting -Isn’t it because you’ve been sitting in
jail thinking about this charge, and you know intent is what this
whole case is about?

Because I’m trying to find out if his intent is really to do what he’s
saying he’s doing.

Defense counsel objected and, at a bench conference, argued:50
We’ve gone to great lengths to show that this man is not in jail. I’ve
walked to the staircase with him each time the Jury’s taken a break. We
purposely don’t bring him in in orange, we don’t bring him handcuffed.
For him to say he’d been sitting in jail is improper and it’s to
prejudice this Jury and I’m going to move for a mistrial.

49State Record Vol. 6 of 12, Trial Transcript, p. 80, 2/27/12.
50Id. at pp. 80-81.

25

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 26 of 83

The prosecutor responded that, on direct examination, defense counsel brought up
the fact that law enforcement visited Workman while he was in jail.51 The trial court
agreed that defense counsel asked Workman about Detective Rivard’s interview of him
while he was in jail.52 The trial court rejected defense counsel’s argument that his
question related to when Workman was first arrested while the prosecution’s question
related to two years later and explained, “There is no time frame. But he’s saying that
he didn’t give a time frame when he just asked that question. Your motion is denied and
your objection is overruled. ?»53
In his motion for new trial, defense counsel argued that Workman was prejudiced
by the prosecutor alluding to the fact that petitioner had been in jail for two years.54 The
trial court found:55
With regard to point two, the action of the District Attorney, the
Court would note that the Defense did mention, in examination, that Mr.
Workman was in jail.
The Court would agree that the Court goes at great lengths to insure
that Defendants are not prejudiced. Mr. Workman was allowed to wear
civilian clothes. He was very well-dressed for the trial, and the Court
believes that it’s not necessary to do that, but the Court allows that to
happen.
51idt at p. 81.
52id at p. 82.
53Id.
54State Record Vol. 1 of 12, Motion for New Trial, 3/6/14.
55State Record Vol. 6 of 9, Sentencing Transcript at pp. 5-6, 3/10/14.
26

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 27 of 83

The Court, also would note that the Jury never saw Mr. Workman
escorted by police officers, they never saw Mr. Workman in shackles or
handcuffs. The Court, when it considers the entire circumstances, believes
that that does not rise to a level that should require a new trial.
On direct appeal, Workman asserted that the trial court should have granted a
mistrial based on the prosecutor’s suggestion that Workman had concocted his defense
while sitting in jail. The Louisiana Fifth Circuit found that Workman’s claim that a
mistrial should have been granted was based on a different basis than the one asserted at
trial.56

The appellate court explained that defense counsel did not make a

contemporaneous objection based on prosecutorial misconduct concerning statements
regarding Workman’s alleged fabrication of his defense but rather objected to the
comment regarding Workman sitting in jail. The appellate court found that the claim had
been waived due to failure to lodge a contemporaneous objection, citing State v. Carter.
75 So.3d 1,6 (La. App. 5th Cir. 2011).57 Because the Louisiana Supreme Court rejected
Workman’s direct appeal without stated reasons, this court presumes that it relied upon
the same grounds as the last reasoned state court opinion. See Ylst v. Nunnemaker. 501
U.S. 797, 803 (1991) (when the last state court judgment does not indicate whether it is
based on procedural default or the merits of a federal claim, the federal court will

56Workman, 170 So. 3d at 294; State Record Vol. 6 of 12,5th Cir. Opinion, 14-KA-559 atp. 24,
4/15/15.
57Id; State Record Vol. 6 of 12, 5th Cir. Opinion, 14-KA-559 at p. 24,4/15/15.
27

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 28 of 83

presume that the state court has relied upon the same grounds as the last reasoned state
court opinion).
Generally, a federal court will not review a question of federal law decided by a
state court if the decision of that state court rests on a state ground that is both
independent of the federal claim and adequate to support that judgment. Coleman. 501
U.S. at 731-32; Glover v, Cain. 128 F.3d 900, 902 (5th Cir. 1997); Amos v. Scott. 61
F.3d 333, 338 (5th Cir. 1995) (citing Harris v. Reed. 489 U.S. 255, 260, 262 (1989)).
This “independent and adequate state law” doctrine applies to both substantive and
procedural grounds and affects federal review of claims that are raised on either direct
or habeas review. Amos. 61 F.3d at 338.
Procedural default does not bar federal court review of a federal claim in a habeas
petition unless the last state court to render a judgment in the case has clearly and
expressly indicated that its judgment is independent of federal law and rests on a state
procedural bar. Harris. 489 U.S. at 263; Glover. 128 F.3d at 902. The procedural bars
also prevail over any alternative discussion of the merits of the claim by a state court.
See Robinson v. Louisiana. 606 F. App’x 199, 204 (5th Cir. 2015) (citing Woodfox v.
Cain. 609 F.3d 774, 796 (5th Cir. 2010)). In this case, the procedural rule cited by the
Louisiana Fifth Circuit on direct appeal bars review of Workman’s federal habeas claim.

28

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 29 of 83

A.

INDEPENDENT AND ADEQUATE
For the state law procedural bar to prevent review by this federal habeas court, the

bar must be independent and adequate. A procedural restriction is “independent” if the
state court’s judgment “clearly and expressly” indicates that it is independent of federal
law and rests solely on a state procedural bar. Amos. 61 F.3d at 338. The United States
Fifth Circuit has held that “[a] state court expressly and unambiguously bases its denial
of relief on a state procedural default even if it alternatively reaches the merits of a
[petitioner’s] claim.” Fishery. Texas. 169 F.3d 295, 300 (5th Cir. 1999).
To be “adequate,” the state procedural rule must be strictly or regularly followed
and evenhandedly applied to the majority of similar cases. Walker v. Martin. 562 U.S.
307, 316 (2011); Glover. 128 F.3d at 902. A state procedural rule “can be ‘firmly
established’ and ‘regularly followed,’—even ifthe appropriate exercise ofdiscretion may
permit consideration of a federal claim in some cases but not others.” Beard v. Kindler.
558 U.S. 53, 60-61 (2009) (citation omitted). The question of the adequacy of a state
procedural bar is itself a federal question. Beard. 558 U.S. at 60 (citing Lee v. Kemna.
534 U.S. 362,375 (2002)).
The last reasoned decision on Workman’s prosecutorial misconduct claim was the
Louisiana Fifth Circuit decision relying on Louisiana procedural rules governing
preservation of claims for direct appeal. See Ylst. 501 U.S. at 802. The court cited
Louisiana law restricting appellate review to those objections and grounds presented to
29

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 30 of 83

the state trial court.58

The principal Louisiana statutory provision requiring a

contemporaneous objection is La. Code Crim. P. art. 841(A), which provides that “[a]n
irregularity or error cannot be availed of after verdict unless it was objected to at the time
of occurrence.” It is well-settled that this type of “contemporaneous objection” rule is
an “independent and adequate” state procedural ground which bars federal habeas corpus
review. Wainwright v. Svkes. 433 U.S. 72, 87-88 (1977). The reasons for the state
courts’ dismissal of Workman’s claim, therefore, were independent of federal law and
relied strictly on state procedural requirements. See Harris. 489 U.S. at 263.
It is well-settled and regularly enforced in Louisiana law that a criminal defendant
is limited on appeal to those grounds on which an objection was articulated at trial. See
e.g.. State v. Tavlor. 887 So.2d 589 (La. App. 5th Cir. 2004); State v. Torregano. 875
So.2d 842 (La. App. 5th Cir. 2004); State v. West. 419 So.2d 868 (La. 1982); State v.
Provo. 396 So.2d 1298 (La. 1981); State v. Johnson. 389 So.2d 372 (La. 1980).
Therefore, the failure to preserve a claim contrary to Louisiana law, including La. Code
Crim. P. art. 841, provides adequate state grounds to bar review by the federal courts in
a habeas corpus proceeding. See Proctor v. Butler. 831 F.2d 1251,1253 (5th Cir. 1987).
The same is true in this case.
\

58Workman. 170 So.3d at 294 (citing State v. Carter. 75 So.3d 1, 6 (La. App. 5th Cir. 2011));
State Record Vol. 6 of 12, 5th Cir. Opinion, 14-KA-559 at p. 24,4/15/15.
30

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 31 of 83

The state courts’ ruling was based on Louisiana law setting forth the procedural
requirements for the preservation and presentation ofclaims on direct appeal. See Fisher.
169 F.3d at 300 (state courts’ clear reliance on state procedural rule is determinative of
the issue). The state courts’ reasons for denial of relief on Workman’s claim were
therefore independent of federal law and adequate to bar review of his claims in this
federal habeas court.
B.

CAUSE AND PREJUDICE
A federal habeas petitioner may be excepted from the procedural default rule only

ifhe can show “cause” for his default and “prejudice” attributed to it, or demonstrate that
the federal court’s failure to review the defaulted claim will result in a “fundamental
miscarriage ofjustice.” Fisher. 169 F.3d at 301 (citing Magouirk v. Phillips. 144 F.3d
348, 359 (5th Cir. 19981: Coleman. 501 U.S. at 748-50); Amos. 61 F.3d at 338-39
(citing Harris. 489 U.S. at 262; Engle v. Isaac. 456 U.S. 107, 129 (1982)).
To establish cause for a procedural default, a petitioner must demonstrate that
some objective factor external to the defense impeded his efforts to comply with the
state’s procedural rule. Murray v. Carrier. 477 U.S. 478.488 (1986). The mere fact that
petitioner or his counsel failed to recognize the factual or legal basis for a claim, or failed
to raise the claim despite recognizing it, does not constitute cause for a procedural
default. Id. at 486.

31

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 32 of 83

Workman has not offered any cause for his failure to exhaust or present his claims
in a timely and proper manner to the state courts. The record does not support a finding
that any factor external to the defense prevented petitioner from asserting these claims
in a procedurally proper manner. The record reflects no action or inaction by the State
which prevented him from properly asserting these claims in the state courts.
“The failure to show ‘cause’ is fatal to the invocation of the ‘cause and prejudice’
exception, without regard to whether ‘prejudice’ is shown.” Hogue v. Johnson. 131 F.3d
466, 497 (5th Cir. 1997) (citing Engle. 456 U.S. at 134 n.43). Having failed to show an
objective cause for his default, the court need not determine whether prejudice existed,
and petitioner has not alleged any actual prejudice. Ratcliffv. Estelle. 597 F.2d 474,477
(5th Cir. 1979) (citing Lumpkin v. Ricketts. 551 F.2d 680, 681-82 (5th Cir. 1977)).
C.

FUNDAMENTAL MISCARRIAGE OF JUSTICE
A petitioner may avoid procedural bar only ifa fundamental miscarriage ofjustice

will occur if the merits of his claim are not reviewed. Hogue. 131 F.3d at 497 (citing
Sawver v. Whitley. 505 U.S. 333, 339 (1992)). To establish a fundamental miscarriage
of justice, petitioner must provide this court with evidence that would support a
“colorable showing of factual innocence.” Kuhlmann v. Wilson. 477 U.S. 436, 454
(1986k accord Murray. 477 U.S. at 496: Glover. 128F.3dat902. To satisfy the factual
innocence standard, petitioner must establish a fair probability that, considering all ofthe
evidence now available, the trier of fact would have entertained a reasonable doubt as to
32

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 33 of 83

the defendant’s guilt. Campos v. Johnson. 958 F.Supp. 1180, 1195 (W.D. Tex. 1997)
(footnote omitted); see Nobles. 127 F.3d at 423 n.33 (actual innocence factor requires a
showing by clear and convincing evidence that, “but for constitutional error, no
reasonable factfinder would have found the applicant guilty ofthe underlying offense.”).
When the petitioner has not adequately asserted his actual innocence, his procedural
default cannot be excused under the “fundamental miscarriage of justice” exception.
Glover. 128F.3dat903.
The actual innocence standard encompasses three principles. First, a “credible
[actual innocence] claim requires new reliable evidence—whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence—that
was not presented at trial.” House v. Bell. 547 U.S. 518, 537 (2006) (quoting Schlup v.
Delo. 513 U.S. 298, 324 (1995)). The United States Fifth Circuit Court of Appeals has
held that evidence is “not ‘new’ [when] it was always within the reach of [petitioner’s]
personal knowledge or reasonable investigation.” Moore v. Quarterman. 534 F.3d 454,
465 (5th Cir. 2008). Second, the court’s analysis is not limited to the new evidence
presented by a petitioner in support of his actual innocence claim. Id. “The habeas court
must consider all the evidence, old and new, incriminating and exculpatory, without
regard to whether it would necessarily be admitted under rules of admissibility that
govern at trial.” Bell. 547 U.S. at 538 (quoting Schlup. 513 U.S. at 327). In doing so,
the court “must assess the probative force ofthe newly presented evidence in connection
33

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 34 of 83

with the evidence of guilt adduced at trial.” Schlup. 513 U.S. at 331-32. Third, the
“demanding” actual innocence standard “permits review only in the extraordinary case.”
Bell. 547 U.S. at 538 (citation omitted); see also Fairman v. Anderson. 188 F.3d 635,644
(5th Cir. 1999) (“[0]ur precedent confirms that the mountain ... a petitioner must scale
in order to prove a fundamental miscarriage claim is daunting indeed.”).
In this case and under these standards, Workman has not referenced or presented
any new evidence of his factual innocence or any evidence that might persuade a court
that no juror would have found him guilty. Accord. Golmon v. Director. TDJC-CID. WL
3724838, at *1 (E.D. Tex. Jul. 15, 2013). His contentions in support of his actual
innocence claim and entrapment are part of the same defense evidence available at trial
and already considered by the jury.
For these reasons, Workman has failed to overcome the procedural bar to his
claims, and the foregoing claims, both actually and technically exhausted, must be
dismissed with prejudice as procedurally defaulted.

VI.

STANDARDS OF MERITS REVIEW
28 U.S.C. §§ 2254(d)(1) and (2) contain revised standards of review for questions

of fact, questions of law and mixed questions of fact and law in federal habeas corpus
proceedings. Nobles. 127 F.3d at 419-20 (citing 28 U.S.C. § 2254(b) and (c)).

34

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 35 of 83

Determinations of questions of fact by the state court are “presumed to be correct
.. . and we will give deference to the state court’s decision unless it ‘was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.’” Hill v. Johnson. 210 F.3d 481, 485 (5th Cir. 2000) (quoting 28
U.S.C. § 2254(d)(2)), cert, denied. 532 U.S. 1039 (2001). The amended statute also
codifies the “presumption of correctness” that attaches to state court findings of fact and
the “clear and convincing evidence” burden placed on a petitioner who attempts to
overcome that presumption. 28 U.S.C. § 2254(e)(1).
A state court’s determination of questions of law and mixed questions of law and
fact are reviewed under 28 U.S.C. § 2254(d)(1) and receive deference, unless the state
court’s decision “‘was contrary to, or involved an unreasonable application of, clearly
established [Supreme Court precedent.]”’ Penrv v. Johnson. 215 F.3d 504,507 (5th Cir.
2000) (quoting Miller v. Johnson. 200 F.3d274,280-81 (5th Cir.), cert, denied. 531 U.S.
849 (2000)), affd in part, rev’d in part on other grounds. 532 U.S. 782 (2001); Hill. 210
F.3d at 485. The United States Supreme Court has clarified the Section 2254(d)(1)
standard as follows:
Under the “contrary to” clause, a federal habeas court may grant the writ
if the state court arrives at a conclusion opposite to that reached by this
Court on a question of law or if the state court decides a case differently
than this Court has on a set ofmaterially indistinguishable facts. Under the
“unreasonable application” clause, a federal habeas court may grant the
writ if the state court identifies the correct governing legal principle from
35

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 36 of 83

this Court’s decisions but unreasonably applies that principle to the facts
of the prisoner’s case.
Williams v. Tavlor. 529 U.S. 362, 405-06,412-13 (2000); Penrv v. Johnson. 532 U.S.
782, 792-93 (2001); Hill. 210 F.3d at 485. The “critical point” in determining the
Supreme Court rule to be applied “is that relief is available under § 2254(d)(l)’s
unreasonable-application clause if, and only if, it is so obvious that a clearly established
rule applies to a given set of facts that there could be no ‘fairminded disagreement’ on
the question.” (citation omitted) White v. Woodall. 572 U.S. 415, 427 (2014) (citing
Harrington v. Richter. 562 U.S. 86, 103 (2011)), and Knowles v. Mirzavance. 556 U.S.
111,122 (2009). “Thus, ‘if a habeas court must extend a rationale before it can apply to
the facts at hand,’ then by definition the rationale was not ‘clearly established at the time
ofthe state-court decision.’” White. 134 S.Ct. at 1706 (quoting Yarborough v. Alvarado.
541 U.S. 652, 666 (2004)).
“‘A federal habeas court may not issue the writ simply because that court
concludes in its independent judgment that the state court decision applied [a Supreme
Court case] incorrectly.’” Price v. Vincent. 538U.S.634,641 (2003) (quoting Woodford
v. Visciotti. 537 U.S. 19, 24-25 (2002)) (brackets in original); Bell v. Cone. 535 U.S.
685, 699 (2002). Rather, under the “unreasonable application” standard, “the only
question for a federal habeas court is whether the state court’s determination is
objectively unreasonable.” Neal v. Puckett. 286 F.3d 230, 246 (5th Cir. 2002), cert.
36

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 37 of 83

denied, sub nom. Neal v. Epps. 537 U.S. 1104 (2003). The burden is on the petitioner
to show that the state court applied the precedent to the facts of his case in an objectively *
unreasonable manner. Price. 538 U.S. at 641 (quoting Woodford. 537 U.S. at 24-25);
Wright v. Ouartennan. 470 F.3d 581, 585 (5th Cir. 2006).
A.

DENIAL OF MOTIONS TO SUPPRESS (CLAIM NO. U
Workman argues that the state trial court erred in denying the motions to suppress

his statement to police. He alleges that his statement was the product of fear, duress,
intimidation, menaces, threats, inducements and/or promises.
Defense counsel filed a motion to suppress petitioner’s statement on June 12,
2012.59 Petitioner filed a similar pro se motion to suppress his statement on March 26,
2013.60 A hearing was held on February 25,2014, after which the state trial court denied
both motions to suppress.61
Both Workman and his counsel asserted this claim on direct appeal. The state
appellate court found that Workman was twice advised of his Miranda rights and there
was no indication from the record that Workman was coerced into making his statement
under the influence of “threats” made by Agent Hall. The court noted that Agent Hall’s

59State Record Vol. 1 of 12, Omnibus Motions and Order for Pre-Trial Motions, 6/12/12.
60State Record Vol. 1 of 12, Pro Se Omnibus Motions and Order for Pre-trial Motions, 3/26/13.
61State Record Vol. 1 of 12, Trial Minutes, 2/25/14; State Rec Vol. 5 of 12, Hearing Transcript,
2/25/14.

37

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 38 of 83

advice to Workman of the criminal consequences of lying was not perceived as a threat,
since Workman continued to be untruthful until he was presented with the e-mails
regarding his wrongdoing. The court found that the trial court did not err in denying
petitioner’s motion to suppress the statement, concluding that it was freely and
voluntarily made and not influenced by fear, intimidation, menaces, threats, inducement
or promises.62 This was the last reasoned state court opinion on the issue. See Ylst. 501
U.S. at 802.
The admissibility of a confession is a mixed question of law and fact. Miller v.
Fenton. 474 U.S. 104, 112 (1985); Shislndav v. Ouarterman. 511 F.3d 514, 522 (5th
Cir.2007) (citing Miller. 474 U.S. at 112). A federal court on habeas review must respect
the state court’s determination of voluntariness as long as it was not “contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court.” 28U.S.C. § 2254(dVl): Barnes v. Johnson. 160 F.3d 218,222
(5th Cir. 1998). In doing so, a federal habeas court must afford a presumption of
correctness to state courts’ findings of fact if they are fairly supported by the record.
Miller. 474 U.S. at 117.
Two inquiries determine whether an accused has voluntarily and knowingly
waived his Fifth Amendmentprivilege against self-incrimination. Moran v.Burbine. 475

“Workman, 170 So.3d at 291-94; State Record Vol. 6 of 12,5th Cir. Opinion, 14-KA-559 at pp.
19-23, 4/15/15.
38

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 39 of 83
/

U.S. 412,421 (1986); Soffarv. Cockrell. 300 F.3d 588, 592 (5th Cir.2002). First, waiver
ofthe right must be voluntary and not the product of intimidation, coercion or deception.
Moran. 475 U.S. at 421. Second, the waiver must be made with full awareness of the
nature of the right being waived. Id. In making these inquiries, the court must consider
the “totality ofall the surrounding circumstances—both the characteristics ofthe accused
and the details of the interrogation.” Schneckloth v. Bustamonte. 412 U.S. 218, 224
(1973).

Although mental state or condition may be a significant factor in the

voluntariness determination, “this fact does not justify a conclusion that a defendant’s
mental condition, by itself and apart from its relation to official coercion, should ever
dispose of the inquiry into constitutional ‘voluntariness.’” Carter v. Johnson. 131 F.3d
452.462 (5th Cir. 19971 (citing Colorado v. Connelly. 479 U.S. 157,164(1986)). Thus,
coercive police conduct is a necessary prerequisite to a conclusion that a confession was
involuntary, and the defendant must establish a causal link between the coercive conduct
and the confession. Carter. 131 F.3d at 462 (citing Connelly, 479 U.S. at 163-67).
In assessing voluntariness, “trickery or deceit is only prohibited to the extent it
deprives the suspect ‘of knowledge essential to his ability to understand the nature of his
rights and the consequences of abandoning them.’” Soffar. 300 F.3d at 596 (quoting
Moran. 475 U.S. at 424). Determining whether officers engaged in coercive tactics to
elicit a confession is a question of fact, and the state court’s factual findings are entitled
to deference when supported by the record. Pemberton v. Collins. 991 F.2d 1218, 1225
39

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 40 of 83

(5th Cir. 1993); Self v. Collins. 973 F.2d 1198,1204 (5th Cir. 1992): see also Miller. 474
U.S. at 112 (noting that subsidiary questions such as whether the police engaged in
coercive tactics are afforded the presumption of correctness).
The habeas corpus statute obliges federal judges to respect credibility
determinations made by the state court trier of fact. Pemberton. 991 F.2d at 1225 (citing
Sumner v. Mata. 455 U.S. 591, 597 (1982)). However, if the underlying facts as
determined by the state court indicate the presence of some coercive tactic, the impact
that factor had on the voluntariness of the confession is a matter for independent federal
determination and is ultimately a legal determination. Miller. 474 U.S. at 117: Shislndav.
511 F.3d at 522.
Even if the confession is deemed involuntary under these standards, the Supreme
Court has held that admission of an involuntary confession into evidence is a trial error
subject to harmless error analysis. Arizona v. Fulminante. 499 U.S. 279, 310 (1991).
Under these standards, to grant federal habeas relief, the trial error must have a
substantial and injurious effect or influence in determining the verdict. Brecht v.
Abrahamson. 507 U.S. 619, 637 (1993). Therefore, even if this court were to find that
petitioner’s Fifth Amendment rights were violated, the court must also consider whether
use of the confession at trial was harmless in determining the verdict. Hopkins v.
Cockrell. 325 F.3d 579, 583 (5th Cir.2003).

40

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 41 of 83

In Workman’s case, as required by Jackson v. Denno. 378 U.S. 368 (1964), the
state trial court conducted an evidentiary hearing on the admissibility of Workman’s
inculpatory statements, taking testimony from Special Agent Jamie Hall.63 Hall testified
that both he and Detective Zuppardo advised Workman of his Miranda rights before
interviewing him and that Workman verbally acknowledged his rights and executed both
the FBI and Kenner Police Department Advice of Rights forms.64 Hall identified the
forms Workman signed indicating that he understood his rights, waived them and
consented to questioning65 Hall testified that he did not make any promises to Workman
or threaten or coerce him to make a statement.66 Hall explained that Workman told him
that he posted a Craig’s List advertisement because he wanted “someone’s daughter to
do” and that he began corresponding with a person using the moniker “Savage. ??67
Workman admitted that he and “Savage” traded pornography via e-mail and although he
did not recall how many times they exchanged pornography, he further admitted to
sending images of his minor niece stepping out of the shower and a minor under five

63State Record Vol. 1 of 12, Trial Minutes, 2/25/14; State Record Vol. 5 of 12, Trial Transcript,
2/25/14.
^State Record Vol. 5 of 12, Trial Transcript at pp. 7-9,15,2/25/14.
65IcL at pp. 8-9.
“Idatp. 10.
67ld.
41

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 42 of 83

years old with an adult male ejaculating onto her body.68 They ultimately scheduled a
meeting for Workman to have sex with whom he thought was a twelve-year-old girl.69
Workman admitted that when he was stopped, he was traveling to the residence to have
sex with the minor.70 He also informed police that he had e-mail correspondence with
“Ron Anderson” and attempted to meet with him to have sex with his eleven-year-old
daughter.7'
On cross-examination, Hall testified that he always begins his interviews by
informing the interviewee of the consequences of lying during a federal investigation,
including up to a year in prison and a $250,000 fine.72 According to Hall, Workman was
initially untruthful and said he was going to the residence to see if there was actually a
twelve-year-old girl at the residence and, if so, he planned to call the police.73 Hall told
Workman he believed that Workman was lying to him and reiterated that Workman
could be penalized for being untruthful.74 Thereafter, Workman admitted he was

68

Id. at pp. 10-12, 20.

69]d1 at p. 10.
70State Record Vol. 5 of 12, Trial Transcript at pp. 11,21, 2/25/14.
71ld. at p. 11.
72ld- at pp. 18,24.
73Idi at p. 17.
74Id. at pp. 18-19.

42

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 43 of 83

traveling to the residence to have sex with a twelve-year-old girl.75 After hearing the
testimony, the state trial court permitted use of the confession, explaining that Workman
was advised of his rights, acknowledged that he understood them both verbally and in
writing, and thereafter made incriminating statements.76 The trial court found that while
Hall advised Workman of the criminal consequences of lying, those statements did not
constitute duress.77
While Workman’s counsel did not file a writ application in connection with the
trial court’s adverse decision, he did raise the issue on direct appeal. The Louisiana Fifth
Circuit entered its own findings, which constitute the last reasoned decision on this issue.
The appellate court considered and reviewed the evidence and testimony that was
received at the suppression hearing. After considering the evidence, the court held:78
Although defendant in the instant matter does not contest that he was
properly Mirandized, it is noted that prior to interviewing defendant about
the crimes for which he was arrested, defendant was twice advised of his
Miranda rights both orally and in writing by Detective Zuppardo and Agent
Hall. Defendant indicated that he understood his rights and signed both the
FBI’s and the Kenner Police Department’s advice of rights form, waiving
his rights.
Further, based on the evidence and testimony from the suppression
hearing and the trial, the record is devoid of any indication that defendant
75Id. at d. 19.
76State Record Vol. 5 of 12, Trial Transcript at p. 28, 2/25/14.
77Id.
78Workman. 170 So. 3d at 293-94; State Record Vol. 6 of 12, 5th Cir. Opinion, 14-KA-559 at
pp. 22-23,4/15/15.
43

Case 2:18-cv-13175-JTM

Document 18 Filed 09/06/19 Page 44 of 83

was coerced into making his statement under the influence of “threats”
made by Agent Hall. As stated by the trial court, “[although the agent
advised him of the criminal consequences of lying, the Court believes that
that does not rise to the level of duress to force Mr. Workman to tell
something that is untrue.” Additionally, the record further establishes that
such an advisal was not perceived as a threat to defendant who continued
to be untruthful with Agent Hall until he was presented with concrete
evidence in the form of the email correspondences regarding his
wrongdoing. Accordingly, we find the trial court did not err in denying
defendant’s motion to suppress statement, upon concluding that the
statement was made freely and voluntarily and not under the influence of
fear, intimidation, menaces, threats, inducement, or promises.
On federal habeas review, this court must presume that the factual determinations
of the state courts supporting its legal conclusion were correct, including that Workman
failed to demonstrate that anything Agent Hall told him amounted to unlawful
inducement or threat that compelled him to make the otherwise voluntary statement. The
same presumption applies to the court’s factual findings concerning the voluntariness of
the confession, including that Workman was advised of his Miranda rights, that he
indicated that he understood his rights and that he voluntarily waived those rights.
Pemberton. 991 F.2d at 1225.
To overcome the presumption of correctness as to the state court’s factual
findings, Workman must rebut them by clear and convincing evidence. He has not done
so. For the most part, Workman merely repeats his allegations of threats and coercion
already addressed by the state courts. Workman asserts that the he was not informed of
his rights until he was “restrained in an interrogation room and threatened with arrest if
44

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 45 of 83

he did not answer questions” and that the interrogation “took a mental and physical toll
on him due to these officers’ threats. 5 >79 He further contends, for the first time, that the
interrogation continued after he requested that the questioning stop so he could retain an
attorney.80 These allegations are unsupported by any evidence adduced at the motion
hearing, the trial, on appeal or otherwise.
The sole allegation by Workman supported by the record is that he was informed
of the penalties of lying to a federal agent. Allegations that law enforcement personnel
informed the defendant of the penalties of lying, in and of themselves, do not render
Workman’s statements involuntary. See, e.g.. Rivers v. United States. 400 F.2d 935,943
(5th Cir. 1968) (“With Miranda awareness of his rights to remain silent, to have counsel,
and his willingness to talk, he had no constitutional right to lie and on officer’s
admonition to tell the truth, whether based on morals or even misguided notions of
statutory prohibitions, does not of itself measure up to a paradoxical breach of the
Constitution or coercive pressure rendering the statement involuntary.”); United States
v. Larson. 2019 WL 2587915, at *9 (D. Minn. Jun 6,2019) (advising defendant that he
thought he was lying and informing him ofthe penalties associated with lying to a federal
agent does not amount to a strong-arm tactic), report and recommendation adopted. 2019
WL 2578151 (D. Minn. Jun. 24, 2019); United States v. Roberts. 2010 WL 234719, at

79Record Doc. No. 3-1 at pp. 2-3.
80

Id. at p. 3.
45

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 46 of 83

*20 (E.D. Tenn. Jan. 14, 2010) (defendant’s statement deemed to be voluntary when
agents told defendant they believed he was lying and informed him that lying to a federal
investigator was a felony with a penalty of imprisonment); United States v. Sabinkse.
2008 WL 11441848, at *9 (N.D. Ga. Jul. 25, 2008) (agent’s honest statement to
defendant that lying to federal agents was a crime that could expose him to additional
charges was not improper or coercive), report and recommendation adopted. 2008 WL
11441903 (N.D. Ga. Aug. 14, 2008).
The state court’s factual determinations regarding voluntariness are supported by
the record. Therefore, this court on habeas corpus review must accept as conclusive the
state court’s factual determination that Workman’s statements were voluntary. The state
court’s legal conclusion that Workman’s statements were voluntary reasonably follows
from these facts. Since the statements were voluntary as a matter of fact and law,
harmless error analysis is unnecessary. The denial of relief on this issue is not contrary
to or an unreasonable application of Supreme Court precedent. Workman is not entitled
to relief on this claim.
B.

INSUFFICIENCY OF EVIDENCE & ENTRAPMENT fCLAIM NOS. 2 & 6s)
Workman claims that the evidence was insufficient to prove that he was guilty of

the crimes of which he was convicted and that the trial court erred in holding that there
was no entrapment as a matter of law. He contends that the State failed to show he had

46

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 47 of 83

specific intent or that he was predisposed to commit the crimes before government
involvement.
Workman presented these claims to the Louisiana Fifth Circuit on direct appeal.
The court considered the claims under the standards set forth in Jackson v. Virginia. 443
U.S. 307 (1979), and related state case law, and found that intent was a credibility issue
and that there was sufficient evidence from which the jury could have reasonably
concluded that Workman was guilty of attempted aggravated rape upon a victim under
the age ofthirteen and possession and distribution of child pornography.81 The Louisiana
Fifth Circuit explained that entrapment was an issue for the jury and that, considering the
officers’ testimony and Workman’s e-mails requesting a meeting to have sex with a
twelve-year-old girl, a rational trier of fact could have found that Workman failed to
establish by a preponderance of the evidence that he was induced by a government agent
to commit the crimes for which he was convicted.82 This was the last reasoned opinion
by a state court on this issue. Ylst. 501 U.S. at 802.
Under Jackson, a federal habeas court addressing an insufficiency of the evidence
claim must determine, after viewing the evidence in the light most favorable to the
prosecution, whether a rational trier of fact could have found that the essential elements

81Workman. 170 So.3d at 288-91; State Record Vol. 6 of 12,5th Cir. Opinion, No. 14-KA-559
at pp. 12-19,4/15/15.
82Id. at 291; State Record Vol. 6 of 12, 5th Cir. Opinion, No. 14-KA-559 at pp. 18-19, 4/15/15.
47

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 48 of 83

ofthe crime were proven beyond a reasonable doubt. Jackson. 443 U.S. at 319; Williams
v. Cain. 408 F. App’x 817, 821 (5th Cir. 2011); Perez v, Cain. 529 F.3d 588, 594 (5th
Cir. 2008). Thus, to determine whether the commission of a crime is adequately
supported by the record, the court must review the substantive elements of the crime as
defined by state law. Perez. 529 F.3d at 594 (citing Jackson. 443 U. S. at 324 n. 16).
The court’s consideration of the sufficiency of the evidence extends only to what
was presented at trial.

See McDaniel v. Brown. 558 U.S. 120, 131, 134 (2010)

(recognizing that a reviewing court must consider the trial evidence as a whole under
Jackson): Johnson v. Cain. 347 F. App’x 89,91 (5th Cir. 2009) (Jackson standard relies
“upon the record evidence adduced at the trial”) (quoting Jackson. 443 U.S. at 324).
Review of the sufficiency of the evidence, however, does not include review ofthe weight
of the evidence or the credibility of the witnesses, because those determinations are the
exclusive province of the jury. United States v. Young. 107 F. App’x 442,443 (5th Cir.
2004) (citing United States v. Garcia. 995 F.2d 556, 561 (5th Cir. 1993)); see Jackson.
443 U.S. at 319 (noting that it is the jury’s responsibility “to resolve conflicts in the
testimony, to weigh the evidence, and to draw reasonable inferences from basic facts to
ultimate facts”). All credibility choices and conflicting inferences must be resolved in
favor of the verdict. Ramirez v. Dretke. 398 F.3d 691, 695 (5th Cir. 2005).
A federal habeas court is not authorized to substitute its interpretation of the
evidence or its view of the credibility of witnesses in place of the fact-finder. Weeks v.
48

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 49 of 83

Scott 55 F.3d 1059,1062 (5th Cir. 1995); Alexander v.McCotter. 775 F.2d 595,598 (5th
Cir. 1985). In addition, “[t]he Jackson inquiry ‘does not focus on whether the trier of fact
made the correct guilt or innocence determination, but rather whether it made a rational
decision to convict or acquit.’” Santellan v. Cockrell. 271 F.3d 190,193 (5th Cir. 2001)
(quoting Herrera v. Collins. 506 U.S. 390, 402 (1993)).
A claim of insufficient evidence presents a mixed question of law and fact. Perez.
529 F.3d at 594; Maes v. Thomas. 46 F.3d 979, 988 (10th Cir. 1995). Therefore, this
court must examine whether the state courts’ denial of relief was contrary to or an
unreasonable application of United States Supreme Court precedent.83
Workman was charged with and convicted of attempted aggravated rape of a child
under the age ofthirteen and four counts of possessing or distributing child pornography.
At the relevant time, aggravated rape (now designated as first degree rape), was defined
in relevant part as anal, oral or vaginal sexual intercourse with a victim under the age of

83“The rule as to circumstantial evidence is: assuming every fact to be proved that the evidence
tends to prove, in order to convict, it must exclude every reasonable hypothesis of innocence.” La. Rev.
Stat. § 15:438. However, on federal habeas corpus review, the court does not apply this state law
“reasonable hypothesis” standard, but instead must apply Jackson. See Gillev v. Collins. 968 F.2d 465,
467 (5th Cir. 1992) (citing Schrader v. Whitley. 904 F.2d 282, 284 (5th Cir. 1990)). To the extent
petitioner relies on Louisiana’s circumstantial evidence rule itself, “[t]his is not a purely separate test
from the Jackson standard to be applied instead of a sufficiency of the evidence test. ... Ultimately, all
evidence, both direct and circumstantial, must be sufficient under Jackson to satisfy a rational juror that
the defendant is guilty beyond a reasonable doubt.” State v. Porretto. 468 So. 2d 1142,1146 (La. 1985);
accord State v. Williams. 693 So. 2d 204, 208 (La. App. 4th Cir. 1997). The reasonable hypothesis
standard under state law is “just an evidentiary guide for the jury. If a rational trier of fact reasonably
rejects the defendant’s hypothesis of innocence, that hypothesis fails.” State v. Maxie. 614 So. 2d 1318,
1321 (La. App. 3d Cir. 1993); accord State v. Williams. 693 So. 2d at 208. The appropriate standard for
this court remains Jackson as applied under the parameters of the AEDPA.
49

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 50 of 83

thirteen. La. Rev. Stat. § 14:42(A)(4). A perpetrator has attempted aggravated rape
when, with specific intent to do so, he commits an act for the purposes of and tending
directly to accomplish one or more of the prohibited acts of intercourse. State v. German.
133 So. 3d 179,191 (La. App. 4th Cir. 2014) (citing La. Rev. Stat. § 14:27). Sufficient
evidence to convict a defendant of attempted aggravated rape under Louisiana law has
been found to exist where a defendant travels to meet a fictitious victim. Prine v. Winn
Correctional Center. 2013 WL 4096961, at *3-*5 (W.D. La. Aug. 13, 2013); State v.
Thurston. 900 So. 2d 846, 849-53 (La. App. 5th Cir. 2005) (defendant’s conversations
with an undercover police officer posing as the mother of a nine-year old girl, which
included statements of his intent to perform sex acts on the child, along with his travel to
meet the fictitious victim, were sufficient to constitute an overt act tending towards
accomplishing aggravated rape).
Louisiana law defines specific intent as “that state of mind which exists when the
circumstances indicate that the offender actively desired the prescribed criminal
consequences to follow his act or failure to act.” La. Rev. Stat. § 14:10(1). Under
Louisiana law, specific intent need not be proven directly but may be inferred from the
actions of the defendant and the circumstances surrounding those actions. State v.
Sharlhome. 554 So.2d 1317,1321 (La. App. 1st Cir. 19891: State v. Tate. 851 So.2d921,
930 (La. 2003) (citing State v. Brooks. 505 So.2d 714, 717 (La.1987). The existence of

50

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 51 of 83

specific intent is a conclusion to be resolved by the trier of fact. State v. Alexander. 182
So.3d 126,130 (La. App. 1st Cir. 2015).
La. Rev. Stat. § 14:81.1(A)(1) provides that “[i]t shall be unlawful for a person to
produce, promote, advertise, distribute, possess, or possess with the intent to distribute
pornography involving juveniles.” Pornography involving juveniles is a general intent
crime. State v. Cinel. 646 So. 2d 309 (La. 1994), cert denied. 516 U.S. 881, 116 S. Ct.
215, 133 L.Ed.2d 146 (1995). Under Louisiana law, general criminal intent is present
“when the circumstances indicate that the offender, in the ordinary course of human
experience, must have adverted to the prescribed criminal consequences as reasonably
certain to result from his act or failure to act.” La. Rev. Stat. § 14:10(2). General intent
may be inferred from the circumstance of the event and proved by direct or
circumstantial evidence. State v. Brokenberrv. 942 So.2d 1209 (La. App. 2d Cir. 2006);
State v. Culp. 17 So.3d 429 (La. App. 2d Cir. 2009). Determination of whether the
requisite intent is present in a criminal case is exclusively for the trier of fact. State v.
Huizar. 414 So.2d 741 (La. 1982).
The United States Fifth Circuit Court of Appeals has outlined the substance of
Louisiana law on the defense of entrapment as follows:
Under Louisiana law, “an entrapment is perpetrated when a law
enforcement official or a person acting in cooperation with such an official,
for the purpose of obtaining evidence of the commission of an offense,
solicits, encourages, or otherwise induces another person to engage in
conduct constituting such offense when he is not then otherwise disposed
51

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 52 of 83

to do so.” State v. Batiste. 363 So.2d 639, 641 (La. 1978) (emphasis
added). The Louisiana Supreme Court noted that its law is consistent with
federal law. Id. “In entrapment cases, a line must be drawn between the
trap for the unwary innocent and the trap for the unwary criminal.” State
v. Brand. 520 So.2d 114,117 (La. 1988) (citing Sherman v. United States.
356 U.S. 369, 78 S.Ct. 819, 2 L.Ed.2d 848 (1958)). “For entrapment to
exist, a defendant must be induced in some way to engage in criminal
conduct which he is not otherwise disposed to engage in; an entrapment
defense will not lie if the officers or agents have merely furnished a
defendant, who is predisposed to commit the crime, the opportunities to do
so.” State v. Bernard. 441 So.2d 817, 820 (La. Ct. App.3d Cir.1983), writ
denied. 445 So.2d 439 (La. 1984). See also State v. Wvsinger. 479 So.2d
673, 675 (La. Ct. App. 3d Cir.1985) (“Entrapment exists when the officer
instigates the crime: that is, the officer must plan and conceive the crime
and the defendant must have perpetrated it only because of the trickery,
persuasion, or fraud of the officer .”).
Jones v. Jones. 163 F.3d285, 304 f5th Cir. 19981: see also State v. Henderson. 58 So.3d
552, 558-59 (La. App. 2d Cir. 2011) (citing Brand. 520 So.2d at 114).
In this case, the jury heard testimony from Detective Zuppardo that the Kenner
Police Department received an anonymous tip through its headquarters on March 8,
2012, advising that the police might want to investigate a certain advertisement on
Craig’s List.84 The tipster did not want to leave a name or make a report.85 Zuppardo
located an advertisement titled “Somebody’s Daughter” dated March 6, 2012, which
stated, “Every woman is somebody’s daughter. Do you have a daughteryou could bring

84

State Record Vol. 5 of 12, Trial Transcript at pp. 12-14, 2/26/14.

“Id. at p. 14.
52

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 53 of 83

to me? I’d love to do somebody’s daughter. »86 Zuppardo testified that, because the
advertisement asked for the daughter to be brought to the writer, it implied the daughter
would not be old enough to drive.87 Zuppardo, who was at the end of her shift, passed
the information on to FBI Special Agent Jamie Hall.88 Hall, who was working in an
undercover capacity, and Workman exchanged e-mails and agreed to meet at a location
in Kenner.89 Zuppardo and Hall set up surveillance, and when they saw Workman’s car
turn down Idaho Street, Agent Zuppardo radioed a police unit to conduct a traffic stop.90
When petitioner was arrested, a blue post-it note was found tom in half on the passenger
floorboard of his car with the address provided by Hall.91 Zuppardo and Hall met with
Workman at the Kenner Police Department to conduct an interview.92

Before

interviewing Workman, both Zuppardo and Hall advised Workman of his rights and he

86

Id. at pp. 14-16.

87ld. at p. 16.
88

ldatp. 18.

89

Id at p. 19.

90State Record Vol. 5 of 12, Trial Transcript at pp. 20-24, 2/26/14.
91Id at pp. 28-30.
92Id. at p. 31.
53

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 54 of 83

signed a form waiving them.93 Zuppardo testified that no force or coercion was used, no
promises were made and Workman never asked for an attorney.94
Zuppardo took notes during the interview95 According to Zuppardo, Workman
admitted to posting the advertisement on Craig’s List, communicating with “Savage” and
sending a picture of his niece getting out of the shower.96 Workman told them that he
intended to knock on the door at the Idaho residence and attempt to have sex with the
twelve-year-old girl.97 Workman said, “If I couldn’t have sexual intercourse, then I
wouldn’t want to do anything else with the girl.”98 Workman admitted to sending child
pornography to “Savage” and others.99 He mentioned a person named Ron Anderson,
who Workman claimed had sent him child pornography and said he tried to make
arrangements to have sex with Anderson’s eleven-year-old daughter. 100

93Id at pp. 32-33.
MId at pp. 33-34.
"State Record Vol. 5 of 12, Trial Transcript at pp. 34-35,2/26/14.
*14 at pp. 35-36.
"Id at p. 37.
98

Id at p. 37.

"id. at pp. 37, 54.
too

State Record Vol. 5 of 12, Trial Transcript at pp. 37, 49,2/26/14.

54

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 55 of 83

FBI Special Agent Timothy Lucas conducted surveillance on Workman.101 Lucas
watched Workman leave his apartment in his vehicle and, when he turned on a residential
street, Lucas had Special Agent Harris take over so Workman would not realize he was
being followed. 102 Lucas testified that Workman’s apartment was eventually searched
pursuant to a warrant and a computer tower was seized. 103
FBI Special Agent Lawrence Robinson, a computer forensic examiner, testified
that Agent Hall asked him to image evidence on a USB thumb drive and a hard drive of
a computer and create a disk of bookmarks Agent Hall found pertinent to the
investigation.104 Robinson did not examine the hard drive.105 He categorized the files as
“child erotica” and “child pornography. *?106 Robinson did not know if the images had
been received by e-mail or had been downloaded from the internet directly.107 Robinson
testified that one image was located in the recycle bin, which meant the image was
deleted but the recycle bin was not emptied. 108

101

Id. at p. 57.

102

Id. at. pp. 59-63.

103

Id. at pp. 65-67.

104

Id. at pp. 73, 79-84.

105

Id. at p. 121.

106

State Record Vol. 5 of 12, Trial Transcript at pp. 84, 101, 2/26/14.

107

Id. at p. 122.

108

Id at p. 122.
55

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 56 of 83

FBI Agent Jamie Hall testified that on March 8, 2012, Zuppardo contacted him
and asked him if he could find a Craig’s List post that a concerned citizen had
anonymously reported.109 Hall found a post titled “Somebody’s Daughter. »no Because
the person who posted the advertisement asked for a daughter to be brought to him, it
indicated to Hall that the person was looking for someone under the age of sixteen. in
Hall replied using the moniker “Savage” and asked, “What are you looking for, in
particular? I may have something.”112 Petitioner replied back, “Somebody’s daughter,
you have one?” and they communicated via e-mail, exchanging a total of 94 e-mails over
a one-month period.113 Hall responded, “I may have a few options for you. I have access
to a lot of things. Tell me what you want and I will see if I can help you out. «114
Workman responded, “Like the title says, what have you got, and whose daughter?”115
Petitioner told Hall, “You may not be into what I’m interested in doing,” and asked
“Savage” if he had “some young pics. 5?1 16 Hall asked petitioner “how young are you

109

Id. at p. 134.

ll0Id. at pp. 135-136.
11'id. at p. 117.
ll2State Record Vol. 5 of 12, Trial Transcript at pp. 138, 142,2/26/14.
,,3Id. at pp. 139-141, 143.
ll4Id. at p. 143.
I15ld. at p. 144.
116

Id., at p. 144.
56

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 57 of 83

looking for?” and expressed confusion as to whether petitioner wanted “someone’s
daughter” or photographs, 117 Workman replied that he wanted “both” and asked, “You
have somebody’s daughter in mind?”118 Workman explained that he communicated with
a man online who wanted Workman to “break in his eleven year old daughter.
Something like that. »119 At that point, Hall obtained a subpoena for the IP address. 120
According to Workman’s e-mail, Workman had intended to have sex with the
man’s daughter, but the man stopped writing him and, when Workman tried to e-mail
him, he got a “delivery failure” message.121 Workman asked Hall if “you got someone
we can .... you know?,” which, given all the previous e-mails, Hall understood to mean
Workman was looking to have sex with a child.122 Hall responded that a twelve-year-old
girl might be available and asked Workman how he envisioned it going down and what
was in it for him.123 Workman responded he wanted to “lick her little cunt then have her
suck me, then cum inside her pussy. 95124 Hall responded, “Interesting. Have any pics or

117State Record Vol. 5 of 12, Trial Transcript at p. 146, 2/26/14.
118

Id,, at p. 147.

119

Id., at p. 148.

120

Id,, at p. 148.

I21ld.. at p. 150.
l22State Record Vol. 5 of 12, Trial Transcript at p. 151, 2/26/14.
123Id, at p. 152.
124

Id.atp. 153.
57

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 58 of 83

vids from other escapades like that?” to which Workman replied “Not on my own. Some
a guy sent me. You have any?”125 Hall said yes and asked Workman if he traded and his
preference.126 Workman sent an image of a clothed, young girl and, Hall, in an attempt
to determine ifthe child was in danger, asked Workman if he had access to her, to which
Workman responded, “I wish. You got a pic to share?”127
Hall testified that, by this point, the subpoena to Cox Communications for the IP
address had been returned identifying Workman.128 When Hall inquired as to what type
of picture Workman wanted, Workman responded, “you got any fucking?”129 Hall emailed Workman a video in a format that would not open.130 Workman responded that
he could not get the file to open, asked how he could watch it and sent Hall a picture of
a minor white female standing nude facing away from camera on the phone.131 Workman
sent Hall several child pornographic images in later e-mails and all of the images were
found on Workman’s computer after it was seized.132 After Hall mentioned that his

12SId. at pp. 155-56.
126

State Record Vol. 5 of 12, Trial Transcript at p. 156, 2/26/14.

127Id at pp. 158-60.
128

Idatp. 160.

129

Id atp. 162.

130

Id atpp. 156, 163-64.

,31State Record Vol. 5 of 12, Trial Transcript at pp. 164-66, 2/26/14.
132Id atpp. 166, 168, 172-174, 180-181 ,206.
58

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 59 of 83

girlfriend was leaving town but her children were staying behind, Workman responded,
“I think I remember you saying you may has [sic] access to a 12 year-old. »133 Workman
asked Hall, “You share?,” to which Hall responded, “Videos?”134 Workman responded,
“Well, that too. I was talking about sharing the 12-year old. »135 Workman then started
a new e-mail chain with a different subject header and asked Hall if he would “like to
watch me fuck her?”136 Workman then asked to set up a time.137 They agreed on a
Monday, April 9, 2012, and Hall provided Workman with an address of an apartment
complex on Idaho Street. 138
Hall, who was already staged with other law enforcement team members,
communicated to them that Workman was en route to the meeting location.139 When
Workman was nearing the dead end on Idaho Street, Hall signaled the marked units to
conduct a stop.140 Hall and Zuppardo approached Workman’s vehicle and told him they
wanted to get him into an air-conditioned building, give him some water and an

133Id at pp. 170, 172, 175.
134Id at p. 176.
,35Id.
136

State Record Vol. 5 of 12, Trial Transcript at p. 177, 2/26/14.

137Id at p. 178.
138

IdL atpp. 184-188.

139

Id. atpp. 188-189.

140

Id. at p. 191.
59

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 60 of 83

opportunity for a bathroom break and then they would go over the reasons why he was
stopped. 141
When Hall and Zuppardo met with Workman at the station, Workman was advised
of his Miranda rights.142 At the beginning of the interview, in an attempt to build rapport
with Workman so he would be truthful, Hall let Workman know he knew things about
him like that he played guitar and had a girlfriend named Renee.143 Hall testified that it
was his practice to let suspects know that lying to a federal officer is a crime and that he
advised Workman of the penalties. 144 Hall testified that, initially, Workman was not
forthcoming and admitted believing “Savage” was offering a twelve-year-old girl to have
sex with him, but claimed his intent was to go to the residence to see if it was true and
then call law enforcement.145 Workman also did not initially acknowledge sending child
pornography.146 After Hall showed Workman some of the e-mails, Workman admitted
to communicating with “Savage” after posting the Craig’s List advertisement titled
“Somebody’s Daughter. 99147 He admitted sending six child pornographic photographs,

141State Record Vol. 6 of 12, Trial Transcript (con’t) at p. 192,2/26/14.
142

Id. at p. 195.

143

Id. at p. 194.

144

Id at pp. 195, 197, 230.

145Id atp. 198.
146

State Record Vol. 6 of 12, Trial Transcript (con’t) atp. 199,2/26/14.

147

Id. at p. 203.
60

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 61 of 83

described them and admitted that one was a picture of his niece getting out of the
shower.148 Workman told Hall that he had planned to have sex with the twelve-year-old
“Savage” lived with; however, if he was impotent he would have left and done nothing
else.'49 Workman also told them about a man named Ron Anderson who had an elevenyear-old who Workman was trying to meet to have sex.150 At the conclusion of the
interview, Workman said he wanted to veer away from becoming a pedophile and begged
to be let go.151
Workman testified that he was researching human behavior on the internet.152
Workman explained that he received chats from a sixty-year-old man in New Zealand
using the moniker “Koala” who sent him icons which petitioner saved assuming they
were pictures of women. When he maximized the icons, he realized they were child
pornography and deleted them.153

Workman claimed that when he was doing

maintenance on his computer, he found that the photographs still existed and attempted
to delete them again.154 Workman claimed he repeatedly deleted and restored the files

148

Id. at pp. 205-06.

149

Id. at pp. 201-07.

150

Id at pp. 208-09.

,51Idatp. 209.
,52State Record Vol. 6 of 12, Trial Transcript at p. 27, 2/27/12.
,53Id at pp. 28-30.
154Id at p. 29.
61

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 62 of 83

until he received a “file does not exist” message.155 He found the pictures again, renamed
them “Koala” and deleted them, again after which he believed they were gone. 156
Workman testified that he posted a Craig’s List advertisement about “Somebody ’ s
Daughter,” which he claimed was a saying from high school, as part of his behavioral
research. He claimed that he intended to attract adults and specifically used the word
“woman” and never intended to attract a child.157 Workman testified that he received
“quite a few responses,” including one from Ron Anderson who wanted him to “break
in ” his eleven-year-old daughter.158 He also testified about a person named “Endavin”
whom he allowed to come to his home, and they talked about how his father forced him
and his sister to have sex.159 Workman claimed that after his communications with
Endavin and Ron Anderson, he was interested in finding the people victimizing the
children. 160
Workman testified that “Savage” responded to his “Somebody’s Daughter” post. 161
Workman admitted he sent “Savage” a picture of a girl dressed in clothes and a girl on
,55Id. at p. 30.
156

Id. at pp. 30-31.

157Idatpp. 32-33,49-51.
158

State Record Vol. 6 of 12, Trial Transcript at pp. 33, 57-58, 2/27/12.

,59Id at pp. 35-38.
160

Id. at p. 42.

161

Id. at 38-39.
62

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 63 of 83

a telephone, although he claimed he did so to see if “Savage” was familiar with Ron
Anderson. 162 Workman admitted that some of the pictures he sent “Savage” were the
ones he received from Koala, but claimed that he accidentally sent the images to
“Savage” and had no intent to distribute child pornography.163 He testified that he sent
photographs ofpeople he believed were adult women.164 Workman claimed he traveled
to the Idaho Street location with the intention to see if it was a “real thing,” confirm the
address and call law enforcement personnel, but that he had no intent to have sex with
a twelve-year-old.165 Workman testified that, when he was stopped by law enforcement
officers, he tried to tell them about Ron Anderson and Endavin.166 He stated that during
the interview, Hall told him at least twice that it was a crime to lie to a federal officer. 167
Workman denied telling Hall that he was traveling to have sex with a twelve-year-old. 168
Workman testified that he wrote a letter explaining what happened and included
the names involved and sent it to his sister, who mailed it to television stations in New

162

Id at pp. 40, 48, 62, 68, 70.

163

Id at pp. 41,45,47, 75-76, 86, 96, 99.

164

State Record Vol. 6 of 12, Trial Transcript at pp. 41, 47,2/27/12.

165

Id. at pp. 41—42, 99.

166

Id. at pp. 42-43.

167

Id. at pp. 43^44.

168

Id. at pp. 44-45.
63

Case 2:18-cv*13175-JTM Document 18 Filed 09/06/19 Page 64 of 83

Orleans, Baton Rouge and Birmingham, Alabama, and to Child Services.169 He claimed
that, in response to his letter, he was interviewed by Detective Jason Rivard, and he gave
him all the information he knew about Ron Anderson. 170
Workman testified that there were 148 images of little girls in thongs on his
computer because he allowed a friend to use his computer to do research.171 He claimed
that his friend’s granddaughter was approached by a talent agent who wanted her to pose
for “some things,”172 and they researched online by accessing several websites and
concluded the granddaughter should not accept the offer.173 Workman testified that he
did not save the pictures.174
Two lifelong friends of Workman, Danny Nichols and Fred Nance, both testified
that Workman was honest and had a reputation for wanting to help others.175
Based on the verdict, the jury apparently found that the State’s evidence and
testimony were the more credible version of the facts and rejected Workman’s claim of

169

State Record Vol. 6 of 12, Trial Transcript at pp. 45,47, 2/27/12.

170

Id.

171Id. at pp. 63-65.
172ld. at p. 63.
173ld. at pp. 63-64.
'"Idatp. 64.
175ld. at 101,106.
64

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 65 of 83

entrapment.176 Workman’s argument in this regard is essentially that the jury should
have believed his testimony. In short, the trial record reflects a classic credibility contest
in witness testimony, including the inferences to be drawn from and the weight to be
assigned to the evidence. These are functions the law assigns to the jury, which resolved
Workman’s assertions against him. Jackson limits this court’s review to the evidence
before the trier of fact and does not allow this court to reassess the weight and credibility
of the evidence. See Jackson. 443 U.S. at 319 (finding that such matters are left to the
factfinder). Specifically, determination of the credibility of a witness is within the
province of the jury and is not to be disturbed on habeas review. Passman v. Blackburn.
652 F.2d 559, 569 (5th Cir. 1981) (that the jury chose to believe a witness whose
credibility was challenged is not a question of constitutional dimensions); Holderfield
v. Jones. 903F.Supp. 1011,1018 (5th Cir. 19951 (citing United States v. Hatch. 926F.2d
387, 399 (5th Cir. 1991)) (The habeas court should defer to the jury’s resolution of
credibility determinations and justifiable inferences of fact.). Thus, the jury’s findings
were reasonable and supported by the evidence and testimony.
Viewing the evidence in the light most favorable to the prosecution, I find that
there was more than sufficient evidence upon which a rational trier of fact could have
found that petitioner was not entrapped and that the essential elements of attempted

The trial court instructed the jury regarding the defense of entrapment. State Record Vol. 1
of 12, Criminal Jury Charges at pp. 6-7, 2/27/14.
176

65

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 66 of 83

aggravated rape and possession and distribution of child pornography were established.
Because the state courts’ rejection of Workman’s insufficient evidence and entrapment
claims is not an unreasonable application of Supreme Court precedent to the facts of this
case, I find that Workman’s claims are without merit and do not warrant federal habeas
relief.
C.

INEFFECTIVE ASSISTANCE OF COUNSEL (CLAIM NOS. 4 & 5^
Workman asserts multiple claims of ineffective assistance of trial counsel. He

argues that trial counsel “failed to investigate, subpoena available expert witnesses and
provide vital documents during and prior to trial. »177 Workman also claims ineffective
assistance of appellate counsel for failing to assign as error the introduction of other
crimes consisting of erotic images into evidence.
Workman asserted these claims in his application for post-conviction relief. The
state trial court found Workman’s claims of failure to investigate and to retain an expert
y

in computer forensics speculative and conclusory.178 It found that Workman failed to
show prejudice resulting from counsel’s failure to provide him with essential reports. 179
The state trial court found Workman’s claim ofineffective assistance ofappellate counsel
speculative and conclusory and, given the overwhelming evidence of his guilt, he failed
,77Record Doc. No. 3-1 at p. 8.
178

State Record Vol. 3 of 12, Trial Court Order at pp. 1-2, 2/1/17.

179

Id. at p. 2.
66

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 67 of 83

to show that the appellate court would have overturned his conviction had the issue been
raised on appeal. 180
The Louisiana Fifth Circuit found no error or abuse of discretion in the state trial
court’s ruling that Workman failed to support his claims of ineffective assistance of trial
counsel with anything other than speculation and conclusory allegations.181 As to his
claim of ineffective assistance ofappellate counsel, the Louisiana Fifth Circuit found that
his claim was speculative and conclusory, especially given the overwhelming evidence
of petitioner’s guilt.82 The Louisiana Supreme Court denied relief, applying Strickland
v. Washington. 466 U.S. 668 (1984). 183
In Strickland, the United States Supreme Court established a two-part test for
evaluating claims of ineffective assistance of counsel, requiring petitioner to prove both
deficient performance and resulting prejudice. Id. at 697. The Supreme Court first held
that “the defendant must show that counsel’s representation fell below an objective
standard of reasonableness.” Id. at 687-88. Second, “[t]he defendant must show that
there is a reasonable probability that, but for counsel’s unprofessional errors, the result

180

Id.

181

State Record Vol. 8 of 12, 5th Cir. Order, 17-KH-134 at p. 1,4/4/17.

182

Id.

183

State v. Workman. 255 So.3d 579 (La. 2018) (per curiam); State Record Vol. 10 of 12, La. S.
Ct. Order, 17-KP-0716, 10/29/18.
67

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 68 of 83

of the proceeding would have been different.” Id. at 694; United States v. Kimler. 167
F.3d 889, 893 (5th Cir. 1999).
In deciding ineffective assistance of counsel claims, this court need not address
both prongs of the conjunctive Strickland standard, but may dispose of such a claim
based solely on a petitioner’s failure to meet either prong of the test. Kimler. 167 F.3d
at 893. A habeas corpus petitioner “need not show that ‘counsel’s deficient conduct
more likely than not altered the outcome in the case.’ . . . But it is not enough under
Strickland, ‘that the errors had some conceivable effect on the outcome of the
proceeding.’” (citation omitted) Motley v. Collins. 18 F.3d 1223, 1226 (5th Cir. 1994)
(quoting Strickland. 466 U.S. at 693); Harrington. 562 U.S. at 112 (Strickland requires
a “substantial” likelihood of a different result, not just a “conceivable” one.)
On habeas review, the United States Supreme Court has clarified that, under
Strickland. “[t]he question is whether an attorney’s representation amounted to
incompetence under prevailing professional norms, not whether it deviated from best
practices or most common custom.” Harrington. 562 U.S. at 105. Harrington recognized
the high level of deference owed to a state court’s findings under Strickland in light of
the AEDPA:
The standards created by Strickland and § 2254(d) are both “highly
deferential,” and when the two apply in tandem, review is doubly so. The
Strickland standard is a general one, so the range ofreasonable applications
is substantial. Federal habeas courts must guard against the danger of
equating unreasonableness under Strickland with unreasonableness under
68

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 69 of 83

§ 2254(d). When § 2254(d) applies, the question is not whether counsel’s
actions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland’s deferential standard.
Harrington. 562 U.S. at 105.
Thus, scrutiny of counsel’s performance under § 2254(d) is “doubly deferential.”
Cullen. 563 U.S. at 190 (quoting Knowles. 556 U.S. at 123). This court must therefore
apply the “strong presumption” that counsel’s strategy and defense tactics fall “within
the wide range of reasonable professional assistance.” Strickland. 466 U.S. at 690.
Federal habeas courts presume that litigation strategy is objectively reasonable
unless clearly proven otherwise by the petitioner. Id., 466 U.S. at 689; Geiger v. Cain.
540 F.3d 303,309 (5th Cir. 2008); Moore v. Johnson. 194 F.3d 586, 591 (5th Cir. 1999).
In assessing counsel’s performance, a federal habeas court must make every effort to
eliminate the distorting effects ofhindsight, to reconstruct the circumstances ofcounsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the time
of trial. Strickland. 466 U.S. at 689; Neal. 286 F.3d at 236-37; Clark v. Johnson. 227
F.3d 273.282-83 (5th Cir. 20001. cert, denied. 531 U.S. 1167 (20011. Tactical decisions,
when supported by the circumstances, are objectively reasonable and do not amount to
unconstitutionally deficient performance. Lamb v. Johnson. 179 F.3d 352,358 (5th Cir.
19991. cert, denied. 528 U.S. 1013 (1999) (citing Rector v. Johnson. 120 F.3d 551, 564
(5th Cir. 1997), and Mann v. Scott. 41 F.3d 968, 983-84 (5th Cir. 1994)).

69

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 70 of 83

The issue of ineffective assistance of counsel is a mixed question of law and fact.
Clark v. Thaler. 673 F.3d 410,416 (5th Cir. 2012); Woodfox. 609 F.3d at 789. Thus, the
question before this court is whether the state courts’ denial of relief was contrary to or
an unreasonable application of United States Supreme Court precedent.
(1)

Failure to Investigate and Subpoena Expert Witness to Testify
Workman claims that his trial counsel failed to hire an investigator to investigate

the case and failed to call an expert witness, D. Wesley Attaway, who conducted a
forensic analysis of Workman’s computer hard drive, to testify at trial.
“‘A defendant who alleges a failure to investigate on the part of his counsel must
allege with specificity what the investigation would have revealed and how it would have
altered the outcome of the trial.”’ Moawad v. Anderson. 143 F.3d 942, 948 (5th Cir.
1998) (emphasis added, citation omitted); accord Druerv v. Thaler. 647 F.3d 535, 541
(5th Cir. 2011). A petitioner cannot show prejudice as to a claim that his counsel failed
to investigate without adducing what the investigation would have shown. Diaz v.
Quartern!an. 239 F. App’x 886, 890 (5th Cir. 2007) (citing Strickland. 466 U.S. at 696,
recognizing that some evidence is required to show that “the decision reached would
reasonably likely have been different.”). To prevail on such a claim, petitioner must
provide factual support showing what exculpatory evidence further investigation would
have revealed. Moawad. 143 F.3d at 948: Brown v. Dretke. 419 F.3d 365, 375 (5th Cir.

70

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 71 of 83

2005); Davis v. Cain. 2008 WL 5191912, at *10 (E.D. La. Dec. 11, 2008) (adopting
referenced Report and Recommendation).
As an initial matter, Workman has failed to establish that counsel’s investigation
without an investigator was actually inadequate in any respect. In fact, he presented no
evidence whatsoever as to what investigative steps counsel actually took or failed to take.
Without such evidence, he cannot show that counsel performed deficiently. Netter v.
Cain. 2016 WL 7157028, at *11 (E.D. La. Oct. 6, 2016), adopted. 2016 WL 7116070
(E.D. La. Dec. 7, 2016). Further, even if petitioner had made that showing, he would
then have to prove that prejudice in fact resulted from the failure to hire an investigator.
Workman has not shown that any beneficial information would have been revealed by
further investigation; rather, his assertions are entirely speculative. Such bare speculation
is not sufficient to meet his burden of proof. See Thomas v. Cain.2009 WL 4799203, at
*9 (E.D. La. Dec. 9, 2009).
As for Workman’s claim relating to the failure to present the testimony of an
expert witness, it is well settled that [cjomplaints ofuncalled witnesses are not favored,
because the presentation of testimonial evidence is a matter of trial strategy and because
allegations of what a witness would have testified are largely speculative.’” Graves v.
Cockrell. 351 F.3d 143,156 (5th Cir.20031 (quotingBuckelew v. United States. 575 F.2d
515, 521 (5th Cir. 1978)); Brav v. Quartern!an. 265 F. App’x 296, 298 (5th Cir.2008).
To prevail on such a claim, the petitioner must name the witness, demonstrate that the
71

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 72 of 83

witness was available to testify and would have done so, set out the content of the
witness’s proposed testimony, and show that the testimony would have been favorable
to a particular defense. Dav v. Ouarterman. 566 F.3d 527, 538 (5th Cir.2009) (citing
Bray. 265 F. App’x at 298). These requirements apply to both expert and lay witnesses.
Woodfoxv. Cain. 609 F.3d 744,808 (5th Cir. 2010). The Fifth Circuit has “clarified that
the seemingly technical requirements of affirmatively showing availability and
willingness to testify ‘[are] not a matter of formalism.’” Hooks v. Thaler. 394 F. App’x
79, 83 (5th Cir. 2010) (quoting Woodfox. 609 F.3d at 808).
Workman claims that Attaway could have testified that petitioner never shared
child pornography peer to peer and could have also testified about the origins ofthe child
erotica and“missing emails.” He further claims that Attaway would have explained the
photographs were not from websites or search engines and that petitioner took steps to
destroy them. He claims Attaway would have explained how the photos could remain
on the hard drive without Workman’s knowledge and would have presented e-mails from
Anderson and other e-mails with information ofpossible child exploitation, including emails in which “Savage” stated he was abusing his own daughter.
The record demonstrates that defense counsel obtained an order allowing an
unnamed defense expert to access petitioner’s computer hard drive and that discovery

72

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 73 of 83

was satisfied as of January 9,2014.184 There is no evidence in the record, such as a report
or an affidavit from Attaway or any other defense expert, explaining any expert findings.
Workman offers only self-serving, speculative and conclusory allegations that the
proposed witness would have in fact testified and would have done so in a manner
consistent with Workman’s version of the facts. Therefore, petitioner has failed to meet
his burden of proof with respect to this claim. See, e.g.. United States v. Cockrell. 720
F.2d 1423, 1427 (5th Cir. 1983) (courts view “with great caution claims of ineffective
assistance of counsel when the only evidence of a missing witness’s testimony is from
the defendant”); Buniff v. Cain. 2011 WL 2669277, at *3 (E.D. La. July 7, 2011);
Anthony v. Cain. 2009 WL 3564827, at *8 (E.D. La. Oct. 29, 2009) (“This Court may
not speculate as to how such witnesses would have testified; rather, a petitioner must
come forward with evidence, such as affidavits from the uncalled witnesses, on that
issue.”); Combs v. United States. 2009 WL 2151844, at *10 (N.D. Tex. July 10, 2009)
(“Unless the movant provides the court with affidavits, or similar matter, from the alleged
favorable witnesses suggesting what they would have testified to, claims of ineffective
assistance of counsel fail for lack of prejudice.”): Harris v. Director. 2009 WL 1421171,
at *7 (E.D. Tex. May 20,2009) (“Failure to produce an affidavit (or similar evidentiary
support) from the uncalled witness is fatal to the claim of ineffective assistance.”).

184

State Record Vol. 1 of 12, Order, 7/22/13; Minutes, 1/9/14.
73

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 74 of 83

Workman has failed to establish any deficiency or prejudice arising from his
counsel’s failure to hire an investigator or to call Attaway to testify. The denial of relief
on these issues was not contrary to or an unreasonable application of Strickland.

74

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 75 of 83

(2)

Failure to Provide Workman with Discovery
Workman claims his trial counsel was ineffective in failing to provide “vital

documents during and prior to trial.”185 He claims that he “was not provided with a copy
of the search warrant, the subpoena to Cox Communications... the affidavits affirming
the grounds to issue them” or his advice of rights forms.186 Workman argues that he
needed these documents to file a motion to suppress the evidence, which he claims was
illegally obtained, to show that he was questioned before being advised of his Miranda
rights and the charges against him and to prepare his defense.
The record reflects that Workman concedes that his trial counsel met with him on
at least five occasions outside of the times they were present together at court
proceedings.187 He also concedes that trial counsel provided him with discovery, except
“the search warrant, affidavit for arrest, F.B.I. evidence sheets, and advice of rights
form.”188 However, Workman was present at the suppression hearing when the advice of
rights forms were shown to defense counsel before being admitted into evidence.189 At
that hearing, defense counsel elicited testimony from Agent Hall that the Kenner Police

185

Record Doc. No. 3-1 at p. 8.

186

Idatp. 17.

187

State Record Vol. 3 of 12, Application for Post Conviction Relief (con’t), Exh. 9 (Affidavit
of Gary Workman, 9/12/16), 11/15/16.
188Id.
189

State Record Vol. 5 of 12, Hearing Transcript at pp. 1, 9, 2/25/14.
75

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 76 of 83

Department placed Workman under arrest, but he was not advised of his rights until he
arrived at the police department.190 Hall explained that Workman asked a question upon
his arrest and that Hall told him that everything would be explained once they got him
to an air-conditioned building and gave him water.191 According to Hall, that was the
only communication before Workman was advised of his Miranda rights.192 The elapsed
time between the traffic stop and when Workman was advised of his Miranda rights was
less than one hour. 193
The record further reflects that open file discovery was permitted and was
“satisfied. »194 The record demonstrates that defense counsel, who represented Workman
for nearly two years, was fully familiar with the evidence and well-prepared for trial. As
discussed above, Workman’s counsel filed a motion to suppress Workman’s statement.
While he did not file a motion to suppress other evidence, Workman has not
demonstrated any basis to do so or a reasonable probability that such a motion would
have been successful. See Johnson v. Cockrell. 306 F.3d 249, 255 (5th Cir. 2002)
(counsel is not required to make futile motions or frivolous objections); Smithy. Puckett.
190

Id. at pp. 13-15.

I91ld. at pp. 14—15.
,92Id.
193

State Record Vol. 5 of 12, Trial Transcript at p. 32,2/26/14 (Zuppardo).

194

State Record Vol. 1 of 12, Minutes, 1/9/14; Minutes, 2/24/14; State Record Vol. 3 of 12,
Opening Statements Transcript at p. 10,2/26/14; St. Rec. Vol. 6 of 12, Trial Transcript (con’t) at p. 213,
2/26/14.
76

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 77 of 83

907 F.2d 581, 585 n.6 (5th Cir. 1990) (“Counsel is not deficient for, and prejudice does
not issue from, failure to raise a legally meritless claim.”); Koch v. Puckett. 907 F.2d
524,530 (5th Cir. 1990) (concluding that “counsel is not required to make futile motions
or objections.”).
Furthermore, Workman has not shown that he was prejudiced by his trial counsel’s
alleged failure to provide him with documents. The state court record reflects that
Workman’s counsel vigorously challenged the State’s evidence at trial and crossexamined the State’s witnesses in great detail. Defense counsel presented the defenses
of both entrapment and lack of intent. The fact that the jury did not accept either defense
does not render counsel’s performance constitutionally deficient. See Martinez v.
Dretke. 99 F. App’x 538, 543 (5th Cir.2004) (“[A]n unsuccessful strategy does not
necessarily indicate constitutionally deficient counsel.”). “[I]t is all too easy for a court,
examining counsel’s defense after it has proved unsuccessful, to conclude that a
particular act or omission of counsel was unreasonable.” Strickland. 466 U.S. at 689
(citations omitted).
Workman has not established that the state courts’ denial of reliefwas contrary to
or an unreasonable application of Strickland or its progeny. He is not entitled to relief
on this claim.
(3)

Ineffective Assistance of Appellate Counsel

77

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 78 of 83

Workman claims that his appellate counsel was ineffective in failing to argue on
appeal that the trial court permitted inadmissable “other crimes” evidence consisting of
child erotica images to be admitted into evidence.
Agent Hall testified that he submitted the images found on Workman’s computer
to the National Center for Missing and Exploited Children and that some of the children
in the photographs had been identified.195 When the prosecution attempted to show Hall
State’s Exhibit 33, the United States Department of Justice subpoena to Cox
Communications,196 defense counsel objected and argued that he had not been provided
a copy in discovery and did not know the relevance of the evidence.197 The state trial
court found that the document was not necessary and did not admit it into evidence. 198
In addressing State’s Exhibit 18, the FTK-CD report of the examination of Workman’s
computer by Lawrence Robinson, Agent Hall testified that he tagged 184 images on
Workman’s computer that would not constitute child pornography but rather “erotica”
due to the poses.199 Defense counsel did not object to that testimony or the introduction
ofthe exhibit.200 When the prosecutor questioned Workman about the images, Workman
195

State Record Vol. 6 of 12, Trial Transcript (con’t) at pp. 211-212, 214, 2/26/14.

196

State Record Vol. 1 of 12, Trial Minutes, 2/27/14; Exhibit Index Case #12-2204, undated.

197State Record Vol. 6 of 12, Trial Transcript (con’t) at pp. 212-213,2/26/14.
198

State Record Vol. 6 of 12, Trial Transcript (con’t) at p. 214,2/26/14.

199

Id at p. 215.

200

Id.: State Record Vol. 6 of 12, Trial Transcript at pp. 15-17,2/27/14
78

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 79 of 83

explained that he had helped a friend research a talent agency and that he told Agent Hall
about his actions when he was arrested because he had “nothing to hide. »201
Criminal defendants are entitled to effective assistance of counsel in their first
appeal of right. Evitts v. Lucev. 469 U.S. 387. 394 (1985V The Strickland standard for
judging performance of counsel also applies to claims of ineffective appellate counsel.
Smith v. Robbins. 528 U.S. 259, 285 (2000); Goodwin v, Johnson. 132 F.3d 162, 170
(5th Cir. 1997). To prevail on a claim that appellate counsel was constitutionally
ineffective, a petitioner must show that his appellate counsel unreasonably failed to
discover and assert a nonfrivolous issue and establish a reasonable probability that he
would have prevailed on this issue on appeal but for his counsel’s deficient
representation. Briseno v. Cockrell. 274 F.3d 204,207 (5th Cir. 2001); Smith. 528 U.S.
i

at 285-86.
Effective appellate counsel are not required to assert every nonfrivolous available
ground for appeal. Green. 160 F.3d at 1043 (citing Evitts. 469 U.S. at 394). On the
contrary, the United States Supreme Court has long recognized that appellate counsel
filing a merits brief need not and should not argue every nonfrivolous claim; instead,
appellate counsel may legitimately select from among them in the exercise of
professional judgment to maximize the likelihood of success on appeal. Jones v. Barnes.

201

State Record Vol. 6 of 12, Trial Transcript at pp. 63-65, 2/27/14
79

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 80 of 83

463 U.S. 745, 751-52 (1983). Appellate counsel has the discretion to exclude even a
nonfrivolous issue if that issue was unlikely to prevail. See Anderson v. Ouarterman.
204 F. App’x 402, 410 (5th Cir. 2006) (“The issues that Anderson argues his counsel
should have raised on direct appeal... lack merit. As such, failure to raise these issues
did not prejudice Anderson.”); Penson v. Ohio. 488 U.S. 75, 83-84 (1988) (noting that
courts have refused to find counsel ineffective when the proposed appellate issues are
meritless); Kossie v. Thaler. 423 F. App’x 434, 437 (5th Cir. 2011) (recognizing the
Supreme Court’s basic rule that the presumption that appellate counsel was effective will
be overcome only when the claims not asserted are stronger than those that were in fact
raised). Thus, because one of appellate counsel’s important duties is to focus on those
arguments that are most likely to succeed, counsel will not be found constitutionally
ineffective for failure to assert every conceivable issue. Smith. 528 U.S. at 288; Jones.
463 U.S. at 754.
Initially, since Exhibit 33 was not admitted into evidence, there was no basis for
appellate counsel to argue its wrongful admission on appeal. Such an argument would
have wholly lacked merit. Failing to raise a frivolous claim “does not cause counsel’s
performance to fall below an objective level of reasonableness.” Woods v. Johnson. 75
F.3d 1017, 1037 (5th Cir. 1996). Thus, counsel’s failure to assert it on direct appeal
cannot be deemed either deficient performance or prejudicial since Workman has not
demonstrated a reasonable probability that he would have prevailed on this issue.
80

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 81 of 83

As to Workman’s claim that the evidence regarding the child erotica images found
on his computer was not admissible, defense counsel did not object to the testimony or
the admission of the related physical evidence. A contemporaneous objection would
have been necessary to preserve error for review on direct appeal. La. Code Crim. P. art
841(A) (“An irregularity or error cannot be availed of after verdict unless it was objected
to at the time of occurrence.”). In the instant case, there was no contemporaneous
objection. Without the claim being properly preserved for review on direct appeal,
appellate counsel was not in a position to assert the claim on appeal; if it had been raised,
the court of appeal would have rejected it as procedurally defaulted. Appellate counsel
cannot be considered ineffective “in declining to raise an unreviewable issue.” Givens
v. Cockrell. 265 F.3d 306, 310 (5th Cir. 2001); accord Weatherspoon v. Cockrell. 2011
WL 4351397, at *34 (E.D. La. July 8, 2011) (“[Ajppellate counsel was precluded from
raising this claim because there had been no contemporaneous objection at trial.
Therefore, appellate counsel was not deficient for failing to raise the issue on appeal, and
petitioner suffered no prejudice. Accordingly, petitioner’s instant claim fails because he
cannot show a reasonable probability that he would have prevailed on appeal if the issue
had been raised.”) (citations omittedL adopted. 2011 WL 4063611 (E.D. La. Sept. 13,
2011); Arceneaux v. Cain. 2009 WL 917429, at *10 (E.D. La. Mar. 31, 2009) (“Where
appellate review of a claim would be barred due to the absence of a contemporaneous
objection, appellate counsel is not ineffective for failing to assert the claim.”); Taylor v.
81

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 82 of 83

Holliday. 2008 WL 5146505, at *8 (E.D. La. Dec. 4, 2008) (petitioner failed to
demonstrate ineffective assistance of appellate counsel when issue was not preserved for
appeal.).
The state courts’ denial of relief on this claim was not contrary to or an
unreasonable application of Supreme Court precedent. Workman is not entitled to relief
on this claim.
RECOMMENDATION
For the foregoing reasons, it is RECOMMENDED that Workman’s petition for
issuance of a writ of habeas corpus under 28 U.S.C. § 2254 be DENIED and
DISMISSED WITH PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions,
and recommendation in a magistrate judge’s report and recommendation within fourteen
(14) days after being served with a copy shall bar that party, except upon grounds of
plain error, from attacking on appeal the unobjected-to proposed factual findings and
legal conclusions accepted by the district court, provided that the party has been served
with notice that such consequences will result from a failure to object. Douglass v.
United Servs. Auto. Ass’n.79 F.3d 1415,1430(5thCir. 1996) (en banc) (citing 28 U.S.C.
§ 636(b)(1)). 202
202

Douglass referenced the previously applicable ten-day period for the filing of objections.
• Effective December 1,2009,28 U.S.C. § 636(b)(1) was amended to extend the period to fourteen days.
82

Case 2:18-cv-13175-JTM Document 18 Filed 09/06/19 Page 83 of 83

New Orleans, Louisiana, this

6th

day of September, 2019.

JOSEPH C. WILKINSON, JR.
UNITED STATES MAGISTRATE JUDGE

83

Additional material
from this filing is
available in the
Clerk's Office.

